<html>
<title> - RANGE ISSUES AND PROBLEMS WITH THE WILD HORSE AND BURRO ACT AND ITS IMPLEMENTATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  RANGE ISSUES AND PROBLEMS WITH THE WILD HORSE AND BURRO ACT AND ITS 
                             IMPLEMENTATION

=======================================================================

                             FIELD HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                      JULY 13, 1998, RENO, NEVADA

                               __________

                           Serial No. 105-105

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources



                      U.S. GOVERNMENT PRINTING OFFICE
 50-579 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho
                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 13, 1998.......................................     1

Statements of Members:
    Ensign, Hon. John, a Representative in Congress from the 
      State of Nevada............................................     7
        Prepared statement of....................................     7
    Faleomavaega, Hon. Eni, a Delegate in Congress from the 
      Territory of American Samoa................................     3
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Utah..............................................     4
        Prepared statement of....................................     6
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     2

Statements of witnesses:
    Abbey, Robert V., Nevada State Director, BLM.................     8
        Prepared statement of....................................    48
        Additional material submitted by.........................    52
    Balliette, John, Eureka County Natural Resources Manager.....    29
        Prepared statement of....................................    61
    Barcomb, Cathy, Executive Director, Commission for the 
      Preservation of Wild Horses................................    41
        Prepared statement of....................................    67
    Carpenter, Assemblyman John, Nevada Assemblyman..............    15
    Dahl, Demar, Rancher.........................................    40
        Prepared statement of....................................    66
        Additional material submitted by.........................   105
    Flake, Rey, Lincoln County Commissioner......................    28
        Prepared statement of....................................   149
    Lesperance, Anthony, Ph.D., Elko County Commissioner.........    26
        Prepared statement of....................................   129
    Rhoads, Senator Dean, Chairman of the Senate Natural 
      Resources Committee, Nevada Legislature....................    13
        Prepared statement of....................................   106
    Rodriguez, Sheila Hughes, Counsel, Animal Protection 
      Institute..................................................    35
        Prepared statement of....................................   154
    Shroufe, Duane L., Director, Arizona Game & Fish Department..    10
        Prepared statement of....................................    83
    Tattam, David C.J., Field Director, National Wild Horse 
      Association................................................    37
        Prepared statement of....................................   162

Additional material supplied:
    BLM Management Plan..........................................    72
    Sussman, Karen A., President, International Society for the 
      Protection of Mustangs and Burros, prepared statement of...   167

Communications submitted:
    Fugate, Jon, Chairman, Legislative Affairs, Yuma Valley Rod & 
      Gun Club, Inc., Yuma, Arizona, prepared statement of.......    68
    Hazard, Holly E., Executive Director, Doris Day Animal 
      League, prepared statement of..............................    71
    Schutte, Larry L., Big Springs Ranch, Wells, Nevada, prepared 
      statement of...............................................    67
    The Humane Society of the United States (HSUS), prepared 
      statement of...............................................    70



  FIELD HEARING ON RANGE ISSUES AND PROBLEMS WITH THE WILD HORSE AND 
                    BURRO ACT AND ITS IMPLEMENTATION

                              ----------                              


                         MONDAY, JULY 13, 1998

        House of Representatives, Subcommittee on National 
            Parks & Public Lands, Committee on Resources, 
            Reno, Nevada.
    The Subcommittee met, pursuant to notice, at 9 a.m., in the 
Washoe County Commission Chambers, Building A, Reno, Nevada, 
Hon. James Hansen (chairman of the Subcommittee) presiding.
    Members present: Representatives Hansen, Faleomavaega, 
Pombo, Chenoweth, Ensign and Gibbons.

 STATEMENT OF HON. JAMES HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The Committee will come to order. The 
Subcommittee on National Parks & Public Lands convenes for a 
field hearing on range issues with wild horses and burros and 
implementation of the 1971 Wild Horse and Burro Act.
    When the Spaniards first came to America, they brought 
horses. Conquistadors like Cortez and Coronado lost a few 
horses during their campaigns and these horses migrated north 
and formed the foundation stock of numerous herds of feral 
animals in the wilderness of North America.
    These herds of feral horses became an important source of 
riding animals for the plains indians and later the American 
pioneers. The herds were, and continue to be, supplemented by 
escaped farm and ranch stock. However, the feral burros are 
mostly descendants of 19th and 20th century escaped or released 
pack animals.
    As a note of clarification, I think it is important to 
mention that these horses and burros are not truly wild animals 
in the sense that bighorn sheep, mountain lions and bears are 
wild animals. These are domesticated animals that have gone 
feral. They are only wild in the sense that the alley cat down 
the street is wild.
    As more of the West was settled and better riding stock was 
imported, feral herds became less important. In fact, they were 
quickly becoming a liability to ranchers and farmers who needed 
the land for domestic stock. Thousands of these horses were 
slaughtered to remove competition with domestic stock, to 
obtain meat for animal feed or for other purposes. Fortunately, 
these horses had some pretty good PR people working for them, 
and the American people mobilized in the late 1960's pushing 
for some sort of protection for these animals.
    In 1971, Congress, finding that wild free-roaming horses 
and burros were quote, ``living symbols of the historic and 
pioneer spirit of the West,'' passed the Wild Horse and Burro 
Protection Act. The Act directed the Secretaries of Agriculture 
and Interior to protect these animals from destruction, to set 
aside range for them and to set up an adoption program for 
excess animals.
    The intentions behind the Act were quite laudable. 
Unfortunately, things have not worked out quite as well as 
Congress anticipated. The range is becoming degraded, riparian 
areas are being destroyed, adoptions are lagging and cost 
millions of dollars a year to administer. The health of the 
animals on the range is deteriorating, disease is becoming a 
problem in many areas and the animals are competing with and 
driving out wildlife.
    It costs $18 million a year to administer the wild horse 
and burro program. Last year, 8,692 animals were adopted. This 
works out to over $2,000 per animal, and yet, these horses sell 
for $200 per animal. Two thousand to sell a $200 horse. If any 
public land program could be called a subsidy, this would be 
it.
    But we are not here today to talk about adoptions, because 
there are even bigger problems on the range. Some of the 
problems stem from the way the Act is implemented, others stem 
from the Act itself.
    As our friend Pat Shea, Director of BLM, has noted, these 
animals are livestock, and we need to give the BLM the 
authority to start managing them as livestock. The BLM faces a 
lot of challenges as it tries to manage its feral animals on 
the public lands. We have given them laws and mandates to live 
by that are often contradictory, and generally they try to do 
the best they can to make sense of the whole mess. I hope we 
can figure out a way to make their job a little easier.
    This hearing was scheduled in order to give 
environmentalists, Federal, state and local government 
officials and concerned citizens an opportunity to discuss some 
of the problems with implementation of the Wild Horse and Burro 
Act and to give people an opportunity to present ideas on how 
to improve management of wild horses and burros. I would like 
to welcome our witnesses and thank them for joining us today. I 
hope this can be a productive dialogue.
    I will now turn to the gentleman from American Samoa, Mr. 
Faleomavaega, for any opening statement that he may have.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    The Committee will come to order. The Subcommittee on 
National Parks and Public Lands convenes for a field hearing on 
range issues with wild horses and burros and implementation of 
the 1971 Wild Horse and Burro Act.
    When the Spaniards first came to the Americas they brought 
horses. Conquistadors like Cortez and Coronado lost a few 
horses during their campaigns and these horses migrated north 
and formed the foundation stock of numerous herds of feral 
animals in the wilderness of North America.
    These herds of feral horses became an important source of 
riding animals for the Plains Indians and later the American 
Pioneers. The herds were and continue to be supplemented by 
escaped farm and ranch stock. However, the feral burros are 
mostly descendants of 19th and 20th century escaped or released 
pack animals.
    As a note of clarification, I think it is important to 
mention that these horses and burros are not truly wild animals 
in the sense that Bighorn Sheep, Mountain Lions and Bears are 
wild animals. These are domesticated animals that have gone 
feral. They are only ``wild'' in the sense that the alley cat 
down the street is ``wild.''
    As more of the West was settled, and better riding stock 
was imported, feral herds became less important. In fact, they 
were quickly becoming a liability to ranchers and farmers who 
needed the land for domestic stock. Thousands of these horses 
were slaughtered to remove competition with domestic stock, to 
obtain meat for animal feed, or for other purposes.
    Fortunately, these horses had some pretty good PR people 
working for them, and the American people mobilized in the late 
1960's, pushing for some sort of protection for these animals.
    In 1971 Congress, finding that wild free-roaming horses and 
burros were ``living symbols of the historic and pioneer spirit 
of the West,'' passed the Wild Horses and Burros Protection 
Act. The Act directed the Secretaries of Agriculture and 
Interior to protect these animals from destruction, to set 
aside range for them, and to set up an adoption program for 
excess animals.
    The intentions behind the Act were quite laudable. 
Unfortunately, things haven't worked out quite as well as 
Congress anticipated. The range is becoming degraded, riparian 
areas are being destroyed, adoptions are lagging and cost 
millions of dollars a year to administer, the health of the 
animals on the range is deteriorating, disease is becoming a 
problem in many areas, and the animals are competing with and 
driving out wildlife.
    It costs $18 million a year to administer the wild horse 
and burro program. Last year 8,692 animals were adopted. That 
works out to over $2,000 per animal. And yet these animals sell 
for about $200. $2,000 to sell a $200 horse--If any public 
lands program could be called a subsidy, this would be it.
    But we are not here today to talk about adoptions, because 
there are even bigger problems on the range. Some of these 
problems stem from the way the Act is implemented, others may 
stem from the Act itself.
    As our friend Mr. Pat Shea has noted, these animals are 
livestock, and we need to give the BLM the authority to start 
managing them as livestock. The BLM faces a lot of challenges 
as it tries to manage feral animals on the public lands. We 
have given them laws and mandates to live by that are often 
contradictory, and generally they try to do the best they can 
to make sense out of the whole mess. I hope we can figure out a 
few ways to make that job a little easier.
    This hearing was scheduled in order to give 
environmentalists, Federal, state and local government 
officials, and concerned citizens an opportunity to discuss 
some of the problems with implementation of the Wild Horse and 
Burro Act and to give people an opportunity to present ideas on 
how to improve management of feral horses and burros. I would 
like to welcome our witnesses and thank them for joining us 
today. I hope this can be a productive dialogue.
    I will now turn the time over to the Gentleman from 
American Samoa for any opening statement.

STATEMENT OF HON. ENI FALEOMAVAEGA, A DELEGATE IN CONGRESS FROM 
                THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman, for calling this 
hearing this morning. I do want to also express my appreciation 
to the gentleman from Nevada, the host of our hearing this 
morning here in Reno. I want to also express my appreciation to 
all the witnesses who are scheduled for having their testimony 
before the Committee here this morning.
    Mr. Chairman, I am pleased to be here today to participate 
in the Subcommittee's oversight hearing on wild horses and 
burros. To some, these animals are a beloved symbol of the 
west; to others, they are considered a nuisance. Either way, 
they are an important aspect of public lands management. 
Legislative policy on this important issue was established more 
than a quarter of a century ago with the passage of the Wild 
Free-Roaming Horse and Burro Act of 1971 that declares that 
wild free-roaming horses and burros are living symbols of the 
historic and pioneer spirit of the west, that they contribute 
to the diversity of life forms within the Nation and enrich the 
lives of the American people. Although the Act has been in 
existence for nearly 27 years, it has been only in the last 2 
years that the wild horses and burro program has come under 
significant public scrutiny.
    Some months ago, an Associated Press report stated that 
despite the existence of current Federal law which is aimed at 
protecting these wild horses and burros, and with the 
implementation of a Federal adoption program for these wild 
animals, through individuals who qualified to adopt these 
animals, along with the pledges not to slaughter such animals, 
there are allegations that thousands of horses are being 
slaughtered and there are further allegations that BLM could 
not even account for some 32,000 adopted animals, and that even 
BLM employees may have been participants and may even have 
profited in the slaughter of thousands of wild horses.
    Then there is also the question of title and ownership of 
these wild animals by their individual adopters. And if title 
is given to owners of these animals, can they transfer such 
ownership or title for purposes of selling the animal to a 
slaughter house company that makes dog and cat food items, 
which today is a multi-billion dollar industry.
    Mr. Chairman, I am aware that a number of concerns have 
been raised about the BLM's management of wild horses and 
burros, particularly its adoption procedures. I also know that 
the BLM has undertaken a number of reforms in the programs in 
the past 18 months. I am here today to listen and learn how 
these reforms are working, as well as whether the overall 
program is achieving the intended purposes of the Wild Free-
Roaming Horse and Burro Act.
    I appreciate the presence of your witnesses again, and I 
look forward to their testimony. Thank you again, Mr. Chairman.
    Mr. Hansen. Thank the gentleman for his comments.
    Our host is Mr. Jim Gibbons, our Congressman from this 
area. I turn to the representative from this area, Mr. Gibbons.

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Gibbons. Thank you very much, Mr. Chairman. And to you, 
as the Chairman of the Committee, and the Ranking Member, Mr. 
Faleomavaega of American Samoa, I want to welcome my colleagues 
and all of you here today to Reno for this hearing. And on 
behalf of the people of the state of Nevada, I want to say 
thank you for your concern about the wild horse and burro 
issue, and especially for conducting a hearing today, in which 
bringing Congress to Nevada brings our representation to the 
people, which I think is an important part. So I applaud you on 
your leadership of this issue and again welcome you here to 
Nevada.
    Mr. Chairman, as you have eloquently stated in your 
remarks, the wild horses in Nevada, as well as the rest of the 
United States, have roamed the ranges here since the late 
1500's when Spanish conquistadors explored north into North 
America from Mexico. These animals are not native to the west, 
they are feral. The horses and burros were released either--or 
lost by the Spanish, which grew wild on the fenceless ranges 
here in the west, and today, nearly 500 years later, their 
legacy lives on. Nowhere is this more prevalent than here in 
Nevada, home to about 60 percent of the wild horses, 60 percent 
of the 43,000 that roam the public lands of the west.
    Unfortunately many problems of the management of today's 
wild horses and burros have met with public scrutiny. The 
current over-population, both on and off range, threatens the 
wellbeing of the environment, strains the resources of the BLM 
to sustain excess animals that have been removed from the 
range.
    Another concern is, the gene pool of these wild herds is 
degenerating as healthier, stronger animals, those more 
suitable for adoption are selected and removed from the range.
    Now this Committee, I am sure, with the help of the public 
and the BLM can resolve many of these issues. That is why I 
have asked you to bring this hearing here today to Nevada so 
that we can hear more about this very important issue.
    1971 public concern for the humane treatment of wild horses 
and burros persuaded Congress to pass the Free-Roaming Horse 
and Burro Act. This Act referred to the wild equines as living 
symbols of the historic and pioneer spirit of the west and 
declared them an integral part of the natural system of public 
lands. The Act granted authority to the Secretary of Interior 
to oversee and manage wild horses and burros. The herds are to 
be managed at a minimum level, allowing them to truly be free 
roaming and wild. However, strict language in the Act requires 
their numbers to be restrained to prevent damage to the range 
and other species.
    Each year the BLM helicopters and riders round up excess 
horses and burros which are offered for adoption to the public 
and a nationwide adoption program. Unfortunately though the BLM 
is presently sheltering more than 6,000 unadopted wild horses 
and burros, these animals are costing the taxpayers about 
$50,000 a week. Many have become unadoptable, and in many 
instances, due to old age and the present spread of disease, 
have precluded their successful adoption. Also, these 
unadoptable animals are being held contrary to the resolution 
set forth in the Act of 1971, and done so at a great expense to 
taxpayers as well as we mentioned previously. Unfortunately 
many of these animals are destined to live out their days as 
Federal welfare cases as facilities across the United States 
are filled beyond capacity. Without adoption or commercial 
demand the horses and burros are consigned to death in 
captivity. A situation which is ironic at best considering the 
attempt of the statue to preserve them.
    The Free-Roaming Horse and Burro Act mandates unadopted 
animals to--and I quote--``be destroyed in the most humane and 
cost efficient manner possible.'' That same fate is designated 
for old, sick or lame animals. However, the BLM is not 
fulfilling this unpleasant but probably necessary 
responsibility. The BLM has resolved to reduce the total 
population to a little more than 27,000 equines; however, 
neither a time table nor the resources are adequate as proposed 
to accomplish this goal.
    Mr. Chairman, I will submit for the remainder of the time 
this morning my written comments. I look forward to the 
witnesses, and I would also like to ask that for purposes of 
submission for the record that I be allowed to enter into the 
record a copy of the Nevada wild horse management plan for 
Federal lands, which has several recommendations within that, 
for the record for the Committee to review on this issue.
    Again, I want to thank you for having this hearing hear 
today. I look forward to the testimony that we are about to 
receive from these panels of well known and educated 
individuals on this issue. Certainly it is time that Congress 
take a look at this very expensive case and have a look at the 
total cost of where we are going, how we are getting there and 
how the management of these animals is predicted and taking 
place for the future. Thank you, Mr. Chairman, again for having 
this hearing.
    Mr. Hansen. Thank you, Mr. Gibbons. Without objection, your 
entire testimony and the testimony on the BLM management plan 
will be included in the record.
    [The prepared statement of Mr. Gibbons follows:]

 Statement of Hon. Jim Gibbons, a Representative in Congress from the 
                            State of Nevada

    Mr. Chairman:
    On behalf of the people of Nevada and all states concerned 
with wild horses and burros, I would like to thank you for 
conducting this hearing today in Reno.
    As you may know, wild horses and burros have roamed the 
ranges of Nevada since the late 1500s when Spanish 
conquistadores explored north from Mexico.
    The horses and burros left, or rather lost, by the Spanish 
grew wild on the fenceless range. Today, nearly 500 years later 
their legacy lives on.
    Nowhere is this more prevalent than here in Nevada, home to 
over half of the 43,000 wild horses and burros that roam public 
lands in the west.
    Unfortunately, many problems challenge the management of 
today's wild horses and burros.
    The current overpopulation--both on and off the range--
threatens the well-being of the environment and strains the 
resources of the BLM to sustain excess animals that have been 
removed from the range.
    Another concern is that the gene pool of the wild herds is 
degenerating as healthier, stronger animals--those more 
suitable for adoption--are selectively removed from the range.
    I feel this Committee, with the help of the BLM, can 
resolve this situation. That is why I asked the Chairman to 
hold this hearing today.
    In 1971, public concern for the humane treatment of the 
wild horses and burros persuaded Congress to pass the Free 
Roaming Horse and Burro Act.
    This Act referred to the wild equines as ``living symbols 
of the historic and pioneer spirit of the West,'' and declared 
them ``an integral part of the natural system of the public 
lands.''
    The Act granted authority to the Secretary of the Interior 
to oversee and manage wild horses and burros.
    The herds are to be managed at a minimum level--allowing 
them to truly be free-roaming and wild. However, strict 
language in the Act requires their numbers to be restrained to 
prevent damage to the range and other species.
    Each year the BLM helicopters and riders round up excess 
horses and burros, which are offered for adoption to the public 
in a nationwide adoption program.
    Unfortunately, though, the BLM is presently sheltering more 
than 6,000 unadopted wild horses and burros. These animals, 
which are costing taxpayers $50,000 dollars a week, have become 
unadoptable in many instances due to old age and the spread of 
disease.
    These unadopted animals are being held contrary to the 
resolutions set forth in the Act of 1971--and done so at a 
great expense to taxpayers. Unfortunately, many of these 
animals are destined to live out their days as Federal welfare 
cases, as facilities across the U.S. are filled beyond 
capacity.
    Without adoption or commercial demand, the horses and 
burros are consigned to death in captivity--a situation which 
is ironic at best.
    The Free Roaming Horse and Burro Act mandates unadopted 
animals to ``be destroyed in the most humane and cost efficient 
manner possible.''
    The same fate is designated for ``old, sick, or lame 
animals.'' However, the BLM is not fulfilling this unpleasant, 
but necessary responsibility.
    The BLM has resolved to reduce the total population to 
28,000 equines, however, neither a timetable nor the resources 
have been proposed to accomplish this goal.
    Many times I have heard the BLM claim that they do not have 
the necessary tools to properly manage the wild horses and 
burros program. Therefore, I call on the BLM to recommend 
legislative solutions, after taking careful consideration of 
today's testimony, to ensure proper management of wild horses 
and burros.
    It is important to remember that the success of feral horse 
management will depend upon accurate scientific information and 
collaborative participation by all groups potentially affected 
by horse management.
    My desire is to develop a realistic management strategy so 
that a healthy band of wild horses and burros freely roam our 
public lands for generations to come. The future of our 
rangelands demand no less!
    Again, Mr. Chairman I would like to thank you for allowing 
us to have this hearing today, and I look forward to the 
testimony from our distinguished panels.

    Mr. Hansen. Our other Nevada host is Congressman John 
Ensign. We will turn to Congressman Ensign for an opening 
statement.

  STATEMENT OF HON. JOHN ENSIGN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Ensign. Thank you, Mr. Chairman. I will just make a few 
brief remarks and ask unanimous consent that my entire 
statement be made part of the record.
    Mr. Hansen. Without objection.
    Mr. Ensign. As a veterinarian, this is an issue that I have 
followed over the years, and having dealt with a lot of 
different animal issues over the years, I find that--and one of 
the reasons I went into veterinary medicine was partly 
because--and mostly because the emotions that you have for 
animals. I think the reason that a lot of people are involved 
with animals is because of the emotional attachment that 
becomes part of that. But I also learned as a veterinarian 
working with various groups over the years that that emotional 
attachment sometimes can be more damaging to the animals that 
you are trying to help than pure science and objectivity would 
bring us in the end. So that is one of the things that I am 
interested in listening to today.
    I will not be able to stay for the whole hearing, but I 
will be interested in reading some of the testimony and some of 
the questions and answers later. How much of the policy is 
actually being directed based on pure emotionalism? How much of 
the policy is being directed on what is truly best for the 
environment, best for the animals in the long-run for the 
overall part of the population, and truly how are we getting to 
where we are going and the thought processes along those lines.
    So, Mr. Chairman, I thank you and I welcome you here to our 
great state of Nevada. We always say as Nevadans that it is the 
greatest state in the country and now you are here to 
experience why we believe that, so welcome.
    Mr. Hansen. Well thank you, Mr. Ensign. We appreciate your 
comments.
    The gentleman from California, Mr. Pombo.
    [The prepared statement of Mr. Ensign follows:]

 Statement of Hon. John Ensign, a Representative in Congress from the 
                            State of Nevada

    Good morning, it is a pleasure to be here today in Reno, 
discussing an issue that is important to the people of Nevada. 
I am grateful to Chairman Jim Hansen, and the Subcommittee on 
National Parks and Public Lands for scheduling this hearing. I 
would also like to extend my appreciation to all our witnesses 
that have gathered today and taken time out of their busy 
schedules to provide their perspectives and possible solutions 
to our wild horse management dilemma.
    This hearing will provide an excellent opportunity to 
listen to the views of state and local officials, officials 
from the Bureau of Land Management, and concerned citizens. 
Participating in an open dialogue is the first step in finding 
solutions to the problems facing the BLM as they continue the 
ongoing management of wild horses.
    In 1971, Congress declared that wild horses and burros were 
``living symbols of the historic and pioneer spirit of the 
West'' and passed the Wild Free-Roaming Horse and Burro Act. 
The Act provided for the protection, management control, and 
control of wild horses and burros on the public lands, and 
directed the Department of Interior, specifically, to manage 
the wild horses and burros.
    It is unfortunate that the current situation isn't what 
Congress had anticipated. Both Federal protection and the 
absence of natural predators have contributed to the growing 
populations of these animals.
    Currently, there are an estimated 43,000 wild horses and 
burros found in the West and more than half of them are found 
right here in Nevada. As we look closer at the situation, we 
find the range land is deteriorating, with many of the riparian 
areas destroyed, and other natural wildlife suffering from a 
decreased availability of food and water.
    There have also been many recent reports questioning tbe 
health and stability of many of the wild horses roaming our 
range. These factors obviously impact the Bureau's ability to 
manage and successfully adopt these horses.
    It is my hope that through the medium of this hearing, we 
will be able to examine some possible solutions to this 
problem, for the benefit of the horses, and the benefit of the 
public. I am anxious to hear the points of view from our 
panelists. I am confident that we can examine possible 
alternatives that would provide for the adequate management of 
healthy wild horse herds, while still maintaining a healthy and 
diverse ecosystem.

    Mr. Pombo. I have nothing, Mr. Chairman.
    Mr. Hansen. The gentlelady from Idaho, Mrs. Chenoweth.
    Mrs. Chenoweth. I have nothing, Mr. Chairman.
    Mr. Hansen. With that, we will turn to our first panel. Our 
first panel is Robert Abbey, Nevada State Director of BLM. If 
you gentlemen would like to come up. Mr. Dean Shroufe--Duane 
Shroufe, excuse me, Director of Arizona Game & Fish Department; 
Senator Dean Rhoads, Chairman of the Senate Natural Resources 
Committee of the Nevada Legislature and Mr. John Carpenter, 
Assemblyman in Nevada. If you folks could all come up, we 
appreciate you being here. As you probably are aware, we 
normally in this Committee limit the statements to 5 minutes. 
If you go over a tad, I can understand. We want to hear this 
testimony, this is very important for us. But if you can kind 
of keep it in that area, and keep in mind that all of your 
entire statements will be included in the record. So if you 
want to abbreviate those, at your wish, that would be fine.
    Mr. Abbey, we will start with you. Pull that mike up. How 
this light system works is just like a traffic light. You go at 
green, at yellow you start winding it up and at red, we will 
not give you a ticket. Depending on how good your testimony is, 
we might let you go on. I am just kidding, of course. You just 
go right ahead.

    STATEMENT OF ROBERT V. ABBEY, NEVADA STATE DIRECTOR, BLM

    Mr. Abbey. Thank you. I am Bob Abbey, State Director for 
the BLM here in Nevada, and like our distinguished Congressmen 
from Nevada, I too would like to welcome you to Reno. This is a 
great state.
    Mr. Chairman and members of the Subcommittee, I appreciate 
the opportunity to participate in this morning's hearing. Due 
to our time constraint, I will provide the Subcommittee with a 
quick overview of the Bureau of Land Management's wild horse 
and burro program, highlighting those actions that are 
presently being taken to address the many issues associated 
with this program. However, I do ask that my prepared 
statement--copies which have been made available to you--be 
entered into the record since it provides additional 
information which might be of interest to the members of this 
Subcommittee.
    As already communicated, since the passage of the Wild and 
Free-Roaming Horse and Burro, Act wild horse herds have 
flourished and these animals are in no danger of extinction. In 
1971, it was estimated that between 10,000 and 17,000 wild 
horses and burros roamed the west. Today there are 
approximately 43,000 wild horses and burros on the public land, 
including an estimated 22,000 in Nevada.
    In this state, the BLM manages 99 herd management areas 
encompassing over 16 million acres of public land. We are 
establishing appropriate management levels--or AMLs, as we 
commonly refer to it--through our multiple use decision 
process, which involves interdisciplinary monitoring of 
resources and evaluations to determine if multiple use and 
rangeland standard objectives are being met.
    At the end of fiscal year 1997, AMLs had been established 
on over half of Nevada's herd management areas and our goal is 
to have those numbers established on all herd management areas 
by fiscal year 2000. We have been removing excess animals at a 
rate allowed by funding and facility space, and we have 
successfully achieved AML in many areas.
    In herd management areas where we have achieved and are 
maintaining AML and working cooperatively with the permittees 
to develop better livestock management practices, we have seen 
a steady improvement in rangeland conditions. We have therefore 
demonstrated that wild horses and burros can be managed within 
a thriving ecological balance with other rangeland uses.
    The BLM has focused its efforts on reaching AMLs by 
addressing population increases in herds through gathering 
excess animals, removing them from the rangelands and placing 
them with qualified adopters. Although the Act itself permits 
the humane destruction of animals, Congress has prohibited the 
destruction of excess healthy animals since 1988. The Adopt-A-
Horse-and-Burro program is, therefore, the only tool the BLM 
currently possesses to manage the excess wild horses and burros 
removed from the range. So far in fiscal year 1998, we have 
gathered almost 4,000 animals in the western states and adopted 
almost 6,000, with most of these adoptions occurring in the 
east. We currently have 3,400 animals in our holding 
facilities.
    The BLM has undertaken a number of initiatives geared to 
increase adoption demand and ensure the humane treatment of 
animals placed with qualified adopters. We have scheduled an 
additional 10 adoption events in the six western states that 
administer the wild horse and burro program to address adoption 
interests in these states.
    Nevada historically does not have a large adoption demand, 
but at the three adoptions that we have sponsored in this state 
this year, we have adopted 65 animals. An additional 111 
animals have been adopted directly from our holding facility in 
Palomino Valley this year.
    The BLM has begun a pilot project using the Internet to 
increase public awareness of the adoption program and to accept 
adoption applications. So far, 15 of the 25 animals featured on 
the Internet have gone to new homes.
    In conclusion, the BLM is making every effort to maximize 
adoptions while maintaining our emphasis on finding good homes 
for all adopted animals. We are moving ahead with research on 
fertility control through the use of contraception. We are 
looking forward to receiving additional recommendations from 
the National Wild Horse and Burro Advisory Board, which was 
reinstituted this year to address public criticism and 
perceived deficiencies within the program. All recommendations 
from the advisory board will be acted upon in a timely manner 
to take full advantage of new ideas which might increase 
efficiencies within the program and improve the health of our 
public lands.
    Mr. Chairman, the BLM-managed wild horse and burro program 
is one of the most scrutinized programs I have ever dealt with. 
Everyone has opinions on how best to manage this program, and 
you will hear several people offer their insights to you this 
morning. The one principle I believe we all agree on in dealing 
with the challenges associated with wild horses and burros on 
the public land is the need to maintain a consistent population 
level that the resources can support. I think we can best 
accomplish this by:
          (1) establishing appropriate management levels in all 
        herd management areas based upon the best range science 
        and monitoring information currently available.
          (2) controlling the reproduction rates of horses and 
        burros on the range through contraception.
          (3) making available sufficient financial resources 
        to gather and adopt the numbers necessary to keep a 
        consistent population on the range.
          And finally, humanely destroying those animals that 
        are too old, sick or disabled to survive independently.
    There may be other ideas from panel members which I would 
be interested in hearing, as I am sure you are, so I will 
conclude my statement at this time. I do however plan to stay 
for the entire hearing, so I will be available to respond to 
any questions that you might have now or later. Again, thank 
you for the opportunity to participate in today's hearing.
    Mr. Hansen. Thank you, Mr. Abbey. Mr. Shroufe.
    [The prepared statement of Mr. Abbey may be found at end of 
hearing.]

 STATEMENT OF DUANE L. SHROUFE, DIRECTOR, ARIZONA GAME & FISH 
                           DEPARTMENT

    Mr. Shroufe. Mr. Chairman and members of the Subcommittee, 
my name is Duane Shroufe and I am Director of the Arizona Game 
and Fish Department.
    On behalf of the Arizona Game and Fish Commission and 
Department, I appreciate the opportunity to be here today to 
provide comments on the Wild Free-Roaming Horses and Burros Act 
and its implementation in Arizona. I would respectfully ask 
that my written statement in its entirety be submitted and on 
the record.
    Mr. Hansen. Without objection.
    Mr. Shroufe. I look forward to presenting information 
regarding the Act and its implementation in Arizona and to 
discuss ideas on how to improve management of feral horses and 
burros in order to protect our public lands.
    In Arizona, wild horse and burro management is primarily 
associated with burro management on public lands administered 
by the Bureau of Land Management. However, burro management 
issues on lands not administered by the BLM are of increasing 
importance in our state, due to the lack of management, 
increasing numbers of burros and resource damage by burros on 
these lands. These lands include National Wildlife Refuges, 
state parks and lands managed in accordance with the Fish and 
Wildlife Coordination Act. We have a special area, the Arizona 
Game and Fish Department's Alamo Lake wildlife area. This area 
is dedicated to the management of the fish and wildlife 
resources and to fish and wildlife related recreation. The 
Arizona Game and Fish Department realizes that the BLM faces 
numerous challenges in order to manage feral burros on public 
lands in the state of Arizona. From the Arizona Game and Fish 
Department's perspective, the most significant of these 
challenges include:

          (1) eliminating or minimizing adverse impacts to the 
        wildlife habitat. These habitats include native wetland 
        and riparian habitat and sensitive wildlife species 
        habitat;
          (2) completing burro population inventories, 
        estimating population densities and maintaining 
        existing appropriate management levels;
          (3) collecting data to determine the level of impacts 
        to wildlife habitats associated with burro use and 
        overpopulation;
          (4) dealing with burro overpopulation and expansion 
        outside of established herd areas or herd management 
        areas; and
          (5) obtaining funds and manpower to remove burros 
        from areas where there is overpopulation, expansion 
        beyond herd area boundaries, or resource damage.
    From the early 1980's to present, we have focused our 
efforts on working cooperatively with the BLM and other 
agencies to collect data in order to document this resource 
damage. Also, the Arizona Game and Fish Department has 
collected data on burro habitat use, resource damage to 
wildlife habitats and burro numbers and distribution during our 
ground and aerial wildlife survey efforts. Adverse impacts by 
burros on native riparian, wetland and upland habitats in 
Arizona have been documented in BLM land management planning 
documents, in U.S. Fish and Wildlife Service evaluations and by 
the Arizona Game and Fish Department's observations and 
studies.
    Although some burro removal efforts have occurred in 
Arizona since the Act was passed, current burro numbers in many 
Arizona herd management areas are estimated by the BLM, the 
Arizona Game and Fish Department and other agencies to be much 
higher than the existing appropriate management levels. And 
many of these areas are not in a thriving natural ecological 
balance.
    For example, the Black Mountain herd management area has an 
appropriate management level of 478 burros, but the population 
is estimated to be over 700 burros. The Big Sandy herd 
management area's estimated burro population is around 300 
while the appropriate management level is set at 139. The Alamo 
herd management area has an estimated appropriate management 
level of 200 burros, but the population is estimated to be 
between 500 and 600 animals.
    In Arizona, BLM suspended most, if not all, significant 
burro removal efforts as a result of the 1989 IBLA decision 
regarding removal of excess free roaming horses in Nevada. 
Arizona BLM through land management planning efforts is 
proposing to manage burros in all Arizona herd areas. In other 
words, the BLM is planning to designate all herd areas as herd 
management areas in the state.
    At the time the Act was passed or soon thereafter, some 
areas of distribution or herd areas, as they are called, were 
prescribed for zero burro numbers due to one or several 
manageability concerns, such as land status and threatened and 
endangered species issues. However, Arizona BLM is now 
proposing to manage burros in all herd areas for a thriving 
natural ecological balance even though the same manageability 
concerns exist today.
    In Arizona, burros are expanding into areas where they have 
not been documented before and have clearly expanded outside 
the boundaries of the established herd areas and herd 
management areas. These problems are due to the lack of 
significant burro removals in Arizona. In the last few years, 
Arizona BLM has indicated to the Department and other agencies 
there are limited funds available for burro management, 
including removals in the state.
    To improve management of feral burros and in order to 
protect our public lands in Arizona, burro management must be 
given a higher priority and funds must be available to manage 
burro populations in accordance with the Act.
    We have several suggestions if I may just take the time to 
make those recommendations:

    The Act itself may not be the problem. Rather, the problem 
appears to be the lack of compliance with the Act. This is 
likely due to different agency priorities, the lack of 
sufficient funding and opposition to responsible and proactive 
horse and burro management pursuant to the Act.
    We need to improve the information and education regarding 
burro numbers in Arizona and the associated damage to the 
resources.
    We need to improve inter-agency planning and management 
efforts to address the burro issues in our state.
    We need to evaluate all available methods for reducing 
horse and burro populations provided for in the Act.
    We need to exclude horses or burros from sensitive wildlife 
habitats such as riparian zones through fencing projects.
    And most importantly, increase funding for burro management 
in the state.
    The department looks forward to working cooperatively with 
the BLM and other agencies to address this issue in Arizona. 
Thank you for the opportunity to appear before you today.
    Mr. Hansen. Thank you. Senator Rhoads.
    [The prepared statement of Mr. Shroufe may be found at end 
of hearing.]

   STATEMENT OF SENATOR DEAN RHOADS, CHAIRMAN OF THE SENATE 
        NATURAL RESOURCES COMMITTEE, NEVADA LEGISLATURE

    Senator Rhoads. Thank you, Mr. Chairman. I am Dean Rhoads 
from Tuscarora, Nevada. I am a rancher, I raise and sell both 
cattle and horses and I am also a Nevada State Senator. I 
wanted to thank all of you for coming to Nevada and coming and 
revisiting this issue that has been around for a long time.
    It is quite interesting to note as I was flying down here 
today, I recall one of my first trips to Washington, DC, I was 
in Walter Baring's office, Mr. Hansen might recall. At that 
time there was 51 bill drafts in there on wild horses and he 
thought he had selected the one that was most reasonable, and I 
am sure if he was around today, he would be astounded as to 
what has happened.
    Also, about 25 years ago today--not today, but I was 
invited to my first Congressional hearing to testify up in 
Billings, Montana on the Wild Horse Act. And me and Velma 
Johnston, who was Wild Horse Annie and others testified. At 
that time, John Melcher, another veterinarian, was the 
Chairman, and I questioned the way the Act was being 
administered then and I really question the way it is being 
managed today.
    This Act, 1972 was the first year it began, cost $400,000. 
Last year, it cost $18 million to manage the wild horses. So 
far, it has cost the taxpayers a quarter of a billion dollars 
over 27 years. The horse herd now, as you have heard many 
times, is 43,650. It costs $369 to feed one of those horses out 
there. As a person who receives part of my income from horse 
sales, I cannot survive with a cost of $369 per year.
    Nevada, of course, has the largest share, 22,835, while the 
appropriate management level is 14,430. It is interesting to 
note that the appropriate management level, both nationally and 
in Nevada has never been met since the inception of the Act, in 
27 years.
    As a cattle rancher, I take great interest in the condition 
of the range. Fortunately, I do not have wild horses in my 
allotment. We have three stud bunches, probably 60 head of 
horses out on my range where my livestock run. I have toured 
various ranges where wild horses graze and it is a sad sight. 
The range condition is down to nothing, as bare as this table 
top in many places in the past few years.
    Some major changes must be made to the Wild Horse Act of 
1971. While as I understand it, the Wild Horse Act of 1971 gave 
the BLM the authority to destroy unadoptable excess animals, 
the Director of the BLM and the Chief of the United States 
Forest Service made a decision in 1982 not to use this 
authority. However, I just recalled Director Abbey stated the 
1988 Congress also made that same change. I was not aware of 
that.
    The Act should be amended that would give the BLM the 
authority to sell to the highest bidder the excess horses. We 
in our operation send to the sale horses that have been 
injured, crooked feet or just simply we cannot sell. We just 
sent a couple of loads, one load 2 weeks ago. Why can't the 
government be allowed to do the same thing?
    I think there are other proposals, some have been tried 
previously and not worked, but I think you should take a good 
look at them again:
    The gatherings could be conducted annually by private 
parties or permittees under contract with the U.S. Government. 
I think we could save the government a lot of money.
    Provide for more wild horse preserves like the one in Pryor 
Mountain in Montana in the west on a combination private and 
public lands with management of these preserves being by 
private parties under supervision of the government. The 
private sector can definitely do it cheaper.
    Then you could remove all the other horses from the west on 
much of our grazing lands.
    We manage all activities on our public lands by controlling 
numbers, except wild horses. Ranchers, through the Taylor 
Grazing Act and so forth, they tell us when, how many and under 
certain conditions that we have out there. Wildlife, if numbers 
get too big, the Department of Wildlife increases the tags. The 
present program of gathering horses and releasing the sick, 
lame, old and unadoptables is about the most poor management 
practices as we in the ranching business could adopt. If we in 
the ranching business adopted such practices, I am sure we 
would be broke in 3 years.
    Another problem I have with the adoption program is it is 
in competition with the private sector that sells horses. It 
costs the Federal Government $369 per year to keep a horse. Say 
they adopted that horse at 3 years old, that is $1,107, and 
then add the gathering costs of $1,100 per horse, you have over 
$2,200 into that horse. Then the BLM sells it for $125. The 
taxpayer picks up the tab for $2,075 for each horse.
    I recently was contacted by a large ranch in Elko County 
that wanted to buy two horses. We spent part of a day working 
out several horses to pick from and had them priced from $1,200 
to $2,000, the going price, only to be informed days later that 
they had bought two head at the BLM sale for $125 each. There 
were 5,937 horses that was put out for adoption in 1997 by the 
BLM for $125. We cannot compete.
    Ladies and gentlemen, you have a difficult task and will 
have to make some tough and unpopular decisions. The most 
important decision you can make in my mind is to give the 
authority to the government agencies to sell the excess horses 
to the highest bidder. Give them sales authority and the major 
problem with management of the wild horses will be solved.
    Good luck and I offer my assistance at any time.
    Mr. Hansen. Thank you, Senator.
    Would you hand the mike down to Assemblyman Carpenter, who 
will be our next speaker. Mr. Carpenter.
    [The prepared statement of Senator Rhoads may be found at 
end of hearing.]

  STATEMENT OF ASSEMBLYMAN JOHN CARPENTER, NEVADA ASSEMBLYMAN

    Mr. Carpenter. Thank you. For the record, John Carpenter, 
Assemblyman, District 33, representing Elko County, and I want 
to thank the Committee for being here and listening to this 
testimony.
    I think that after 27 years, maybe finally we are starting 
to turn the corner on what has been a very serious problem, 
especially in the state of Nevada. Last session of the 
legislature, we passed legislation that requires our Wild Horse 
and Burro Commission to come up with a Nevada plan, to put the 
Nevada brand on a plan for the management of wild horses.
    I would just like to take a couple of seconds and say that 
I have had a lot of experience in wild horses. When I was 
growing up as a young fellow down in Ely, where my uncles had 
an allotment. We had two or three bands of wild horses on 
there, but we managed them, we kept the numbers down. Our 
neighbor, he had 1,000 wild horses and never did sell any of 
them. You can imagine what the range looked like. So at a young 
age, I learned that you have to manage the horses. We love the 
horses, we want them out there, but they need to be managed so 
that they do not destroy our range. I believe I was the first 
person that ever used a helicopter to gather wild horses. So I 
think that I have had experience through my lifetime to be, 
hopefully, a so-called expert on it.
    I believe that the Wild Horse Act has been gutted through 
misdirected regulations, through judges who did not understand 
the west, did not understand the wild horses, we have 
practically rewritten the law. As Dean Rhoads said, I think 
that Congressman Baring would turn over in his grave if he knew 
what had happened to his Wild Horse Act. It was not too bad of 
an Act as originally written, but we have gotten completely 
away from it.
    I think that we have to get the numbers established on 
these wild horse areas. The Bureau has established some of 
these numbers on some areas, but they do not have them all. And 
I heard Mr. Abbey say, you know, maybe in 2001 or 2002, I think 
we need to put a priority on this and get it done within a 
year. If we can get the numbers set, then we need to gather the 
horses down to that number. What is happening now, they go out 
and they gather the horses but because they say that anything 
over 9 years of age is unadoptable, they turn them back out. 
And so in some areas, there is darn near as many left after 
they gather as there was before. This does not make any sense. 
We need to gather them down to the appropriate management 
level. I do not think anybody has a problem if we would gather 
them down to that level.
    And the horses that are left there should be from the same 
bands--horses have great family instincts. If you gather a 
bunch of horses into a corral and there is room enough, in just 
a little while, they will all be there within their family 
units. We need to leave these family units out on the range. It 
does not make any sense to bring all these horses in and to 
start picking them out and start to destroying these families. 
That is what is happening to our country now, we are destroying 
families, and we are doing the same thing with the wild horses. 
We need to leave the best families out there, the ones that are 
able to make the best living, the ones that look the best, we 
need to leave them.
    And then after we have done that, after we get the horses 
down to a reasonable level, then we need to, I believe, start 
using some cooperative agreements. I believe that there are a 
lot of groups out there that if you had the horses in a certain 
area down to appropriate levels, there are a lot of groups out 
there that could keep the numbers down--wild horse groups, 
wildlife people, ranchers, horsemen's organizations, even some 
counties would be glad to help on this situation. I think this 
is the only way we are going to be able to cut these costs, and 
that is to get everybody involved. Like if you are supposed to 
have say 50 or 75 head out on a certain area, it does not take 
too much to go out there every year or so and take 10 or 15 
percent of them. You do not have to do it with a helicopter all 
the time. You know, some guys still like to play cowboy and go 
out and rope one or two. Or you can water trap them. And it is 
not a big deal. But what happens when the Bureau lets them 
buildup to 600 or 700 or 800 head and there is only supposed to 
be 75 there, we know what is happening to the range. And then 
they go out and they gather and maybe they are going to gather 
them down to the 75 head, well they gather them all and then 
they turn 500 more out because they will not be adoptable, 
according to their standards. This is wrong.
    And then those animals that are unadoptable and after they 
have been in the holding facilities for a certain length of 
time, we have to put these animals to sleep humanely. I believe 
that we are doing that with the other animal populations in 
this country. If we did not, we would be absolutely overrun 
with dogs and cats. We need to apply the same thing to the 
horses. And it is going to be a tough deal. There is nothing 
worse that I have had to do in my life than to destroy a horse, 
but sometimes you have got to do it if we are going to be able 
to get this program where it is manageable. After we get it 
down to where the numbers are where they should be, there are 
going to be plenty of people to adopt them, but we need to make 
those first critical, hard decisions.
    Thank you people for being here. I do appreciate it. Thank 
you.
    Mr. Hansen. Thank you, Mr. Carpenter.
    I will recognize members of the Committee for questions of 
this panel for 5 minutes each. The gentleman from American 
Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I have a couple 
of questions. Mr. Abbey first, I do not know if you will be 
able to help me, but you seemed to be the expert just for the 
state of Nevada but not for the whole regional area on BLM. But 
I will give it a shot and I will understand if you are not able 
to respond.
    Hearing from our other witnesses, Mr. Abbey, I get the 
impression with an $80 million program, we cannot even account 
for how many horses and burros we have out there. Is this just 
by some estimates or do we have an accurate accounting on this? 
Not just for the state of Nevada but for the whole region or 
the states that do participate.
    Mr. Abbey. The numbers of horses and burros that we have on 
public lands are estimates. In most states we have 3-year 
cycles where we go out and do census within the herd management 
areas to ascertain to the best of our ability how many horses 
or burros are currently living within the herd management 
areas. But in response to your question, they are estimates.
    Mr. Faleomavaega. Are there any--I think maybe one of the 
things that we ought to also explore is to find out exactly the 
origin, how this whole thing came about. It was not because it 
was the will of our policymakers, this came about because of 
the grassroot support from children all over the country. And 
for some reason and perhaps because of the allegations made 
about the slaughtering of these wild horses. And so Congress 
turned around in 1971 and we enacted this legislation to 
protect them. Some 27 years later now, have we basically 
protected the wild horse? I mean they are not ending up in 
slaughterhouses now, are they, Mr. Abbey?
    Mr. Abbey. Well, I certainly cannot sit here and say that 
there are not wild horses that may wind up in slaughterhouses, 
but in response again to your question, the wild horse is not 
in danger of being extinct. The populations have increased 
substantially since the estimates were devised in the early 
1970's. We estimate that there are approximately 43,000 wild 
horses on the public lands, which is a substantial increase 
since the passage of the Act.
    Mr. Faleomavaega. On the basis that we have enacted this 
law since 1971, what do you honestly believe that we ought to 
do statutorily and how to go about doing this, or do you think 
that under the implementation of the Act, you can still 
promulgate regulations to provide for this control, because 
that seems to be the problem we have here? We have got the 
enacting legislation since 1971, but by way of regulations, we 
seem to get fuzzy on this. And is it true that some 32,000 
horses cannot be accounted for since we implemented this 
program?
    Mr. Abbey. I think to a large degree that figure is a 
result of the system that we had in place for tracking horses 
once they were adopted. That system has been greatly improved 
over the last 5 years and I can guarantee you we can pretty 
much track every horse that has been adopted through the Bureau 
of Land Management's adoption program certainly in the last 4 
or 5 years.
    The Act itself, which was passed in 1971, is sufficient to 
address the many issues associated with the wild horse and 
burro program. And therefore, I am not going to recommend that 
there be revisions made to the 1971 Act.
    Mr. Faleomavaega. I would like to ask Senator Rhoads to 
help me on this. You suggested selling excess horses to the 
highest bidder. What do you intend to do with these excess 
horses if it was put out in the private sector?
    Senator Rhoads. Thank you. Well, I would think--when I send 
horses to the sale, I sell probably 90 percent of my horses on 
the ranch, on private treaty, but there is occasions that 
either the horses are not that--confirmation-wise--as well as 
they should be, they are lame or might have been born with 
crooked feet, I send them to the sales yard. And I usually do 
not go to the sales yard so I have no idea who buys them, but I 
assume that some of them are bought by people that take them 
home and break them. Others are probably bought that ends up in 
the slaughterhouse. But that is just the thing that we have 
been doing for centuries. And we do have a soft spot in our 
heart, the horses that we ride and retire and they do a good 
job, we just let them die on the ranch. But we do sell a number 
of horses. In fact, my neighbor this week, today, is coming 
down to buy some of my horses because they are shipping a whole 
semi load to the sale because they are old and crippled.
    Mr. Faleomavaega. One more question, Mr. Chairman, to Mr. 
Abbey. What is the BLM policy about these lame and crippled 
horses? Are they to be put to sleep or are they then sent to 
the slaughterhouse?
    Mr. Abbey. No, we do not send any horses to the slaughter 
house. We have the draft, which I would be happy to share with 
the Subcommittee here, policy that was approved by the National 
Wild Horse and Burro Advisory Board this past week when they 
met, addressing humane destruction of wild horses and burros. 
If I could, I will read from this, it says, ``Bureau of Land 
Management authorized officer may authorize the humane 
destruction of a wild horse or burro with any of the following 
conditions: Displays a hopeless prognosis for life; suffers 
from a chronic or incurable disease or serious congenital 
defect; requires continuous treatment for the relief of pain 
and suffering; is incapable of maintaining a body score greater 
than 1 in a normal rangeland environment.'' And it goes on. I 
would be happy to make this available to the Subcommittee if 
you would like. Again, it is a draft policy that was presented 
to the National Advisory Board last week. It was approved by 
the National Advisory Board and so I would expect that this 
would come out in final very shortly.
    Mr. Faleomavaega. Mr. Abbey, I would like for the record, 
Mr. Chairman, if the BLM would submit as much as possible how 
many horses exactly were sent to the slaughterhouse that was 
supposed to be under the auspices of the BLM's supervision. 
Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Nevada, Mr. 
Ensign.
    Mr. Ensign. Thank you, Mr. Chairman. Just a couple of 
questions.
    First of all, at least in an article, Pat Shea had said and 
Bob, you had talked about that the estimate on the horses, you 
were not really exactly sure and he said at least in this 
article that the estimate could be much higher, not just a 
little bit higher, but much higher. Do you have any feel for 
how high the number may be?
    Mr. Abbey. Well again, we are fairly comfortable or 
confident in the estimates that we have come up with for the 
herd management areas in Nevada. I will say this, that based 
upon our estimates we are projecting that the populations in 
Nevada are increasing approximately 24 percent per year. Now 
given that, it would not take but 3 or 4 years before that 
population would double in size. So it is very important that 
we maintain significant gathers to remove excess horses off the 
herd management areas. We have estimated that there are 
approximately 22,000 horses and burros on herd management areas 
in Nevada. We are also presently working with the Air Force 
through technology that they have, to try to see if there is 
additional information that they can share with us from some of 
the work that they are doing to validate the number of wild 
horses on our herd management areas. We should have some pretty 
good information from the Air Force within the next, I would 
say, 2 to 6 months.
    Mr. Ensign. You said earlier that the 1971 Act is adequate. 
Given the current situation with the way it is being managed, 
you said that the population can double. Can you just comment 
on what is going to happen when the doubling does take effect 
if indeed the current situation stays the same, it doubles--
what is going to happen to some of these riparian areas, what 
is going to happen--you know, basically across the board 
ecologically, but also what is going to happen to the animals, 
especially if we run into some drought years like we had. I 
have never seen this state so green as it is this year, but 
this is an unusual year. What is going to happen in normal 
years?
    Mr. Abbey. The moisture certainly makes us all look good in 
land management. The accurate response to your question is that 
there would be severe suffering on the part of the animals if 
there continues to be overpopulation of the horses. As a 
result, you would also see significant degradation of the 
natural resources including riparian areas. The horse, just 
like any other animal, is going to search for food and they 
will eat what is available to them at any place on the range. 
And therefore, unless there are continuing efforts to reduce 
the population of the horses and bring the numbers down to 
appropriate management levels, I think you would see some 
suffering on the part of the animals themselves and certainly 
degradation to the natural resources.
    Mr. Ensign. I would like you to also comment, there has 
been brought up about, you know, I guess when Darwin wrote his 
theory of natural selection and survival of the fittest, what 
we seem to have here is an unnatural selection and survival of 
the unfittest, because the fittest are being adopted out and 
now we have the unfittest left on our public lands. Can you 
just comment on the BLM and what your experts are telling you 
what is happening to the gene pool?
    Mr. Abbey. We are trying to use our best judgment at these 
gather sites so that we can leave fit horses out on the range 
to continue a viable healthy population of horses within the 
ability of that resource to sustain that herd. We do have a 
policy in place that prevents us from removing excess horses 
that are 9 years or older to put into the adoption program. So 
horses that we are gathering out on the range that fall within 
that category, that are 9 years or older, we are leaving out on 
the range and we are taking the younger horses for the adoption 
program.
    Mr. Ensign. But what is going to happen long term to the 
gene pool?
    Mr. Abbey. Again, what we are trying to do is to ensure a 
viable healthy population of horses by leaving sufficient stock 
and quality of stock out on the range so that we do not end up 
with just a bunch of older horses out there that would 
basically create deficient----
    Mr. Ensign. The reason for my question was that is not the 
reports that I am hearing back. The reports that I am hearing 
back are that these animals are not the fittest, you know, that 
there are not enough of them and the gene pool is deteriorating 
dramatically.
    Mr. Abbey. Well, I do not think it is deteriorating 
dramatically, I think that is an overstatement. Again, I think 
that we are doing our best to make sure that there is a viable 
population of good stock of wild horses left on the range.
    Mr. Ensign. Thank you, Mr. Chairman.
    Mr. Hansen. Mr. Pombo.
    Mr. Pombo. No questions.
    Mr. Hansen. Mrs. Chenoweth.
    Mrs. Chenoweth. Mr. Chairman, I do have a couple of 
questions. I wanted to ask Mr. Abbey, you said, or I understand 
that most of the gathers are done by helicopter?
    Mr. Abbey. Yes, ma'am.
    Mrs. Chenoweth. Has the BLM really given much thought to 
having some sort of a private gathering because as I understand 
it, helicopter, the rotor really upsets the horses.
    Mr. Abbey. It certainly adds to their stress level.
    Mrs. Chenoweth. Have you thought about having some sort of 
a partnership with private ranchers on the gathers?
    Mr. Abbey. We are certainly interested in any proposal that 
we get from ranchers or anyone for that matter regarding 
reducing stress on the horses during a gather. I was certainly 
interested in Mr. Carpenter's statement and I certainly support 
what he stated, that there are opportunities for us to work 
very closely with counties, ranchers and many other entities 
within the state, not only this state but in every state, to 
gather horses and to do so in a more cost-effective manner. It 
is certainly something that we would be interested in working 
with our Resource Advisory Councils regarding those 
recommendations and we would entertain any proposal from anyone 
in this state that would be interested in working with us to 
help us gather excess animals.
    Mrs. Chenoweth. I was interested in Mr. Shroufe's testimony 
about the increase and I saw in Mr. Rhoads' testimony, one of 
the enclosures, was a graph that showed down here the AMLs, but 
up here actual levels of wild horses and in some years it has 
tripled the AMLs and so with that in mind--and I assume this 
comes from the BLM.
    Mr. Abbey. If that is not our chart, we have one very 
similar to it.
    Mrs. Chenoweth. All right. We have an endangered species 
that is listed here, the tortoise, some tortoise that is listed 
down here in Nevada. How does the increase in the wild horses 
affect those endangered species? There are also some other 
endangered species that cattle and the AUMs have been managed 
according to the endangered species? How does an increase like 
this, sometimes tripling the level, affect the endangered 
species?
    Mr. Abbey. If there is a significant increase in the number 
of horses or livestock for that matter, within those desert 
tortoise habitats, there certainly is cause for concern. In the 
case of the desert tortoise, we have prioritized those areas, 
those habitats, and have achieved or at least established 
appropriate management lev-

els within all of the desert tortoise habitat and we are--if we 
have not achieved AML in each of these desert tortoise 
habitats, we are rapidly working toward achieving AML within 
those with endangered species--so that we can protect the 
endangered species.
    Mrs. Chenoweth. Based on this graph, one would assume that 
if there are units that we have not achieve the AMLs, they 
would not be large in number, would they? Because this graph 
indicates right now a population of two to three times the 
amount of the carrying capacity.
    Mr. Abbey. We have achieved AML in many of the herd 
management areas to date.
    Mrs. Chenoweth. OK. And just one final question. In your 
determination with regards to how you manage certain units, the 
AMLs and how you make that determination, do you make a 
conscious decision to reduce the AUMs based on the AMLs?
    Mr. Abbey. The multiple use decision process that we use to 
establish AML--we also use that process to establish the 
carrying capacity of that range to support livestock and also 
to provide estimates of what the range could support to the 
Division of Wildlife for their use in setting numbers for 
wildlife. The total number of Nevada animal months authorized 
presently is 1,566,266 and this includes cattle, horses and 
sheep. There has been, at least in 1998, there has been a 
reduction of approximately 22,500 AUMs based on the carrying 
capacity of the range, but not all the reductions are the 
result of establishing AML. Some of those reductions--in fact, 
there is a proposed reduction in the Elko District Office of 
the Bureau of Land Management as a result of a proposed land 
exchange. Allotment evaluations also result in increases in 
AUMs. For instance, the number of AUMs authorized in 1997 was 
an increase of 50,600 over the previous year. So we do 
fluctuate in the number of AUMs that are authorized.
    Mrs. Chenoweth. So when the herd rises two to three times 
above the AMLs, then you are still reducing AUMs based on the 
numbers in the herds, right?
    Mr. Abbey. Yes, ma'am, there could be a reduction in the 
number of AUMs on that particular allotment based on 
overgrazing by not only livestock but overgrazing by--or at 
least--I will not use the term overgrazing, but grazing over 
and above the proficiency of the range to support that grazing. 
And we would also hopefully go in and reduce the number of 
horses on that same allotment. That has not always been the 
case.
    Mrs. Chenoweth. I would hope you would too, sir. Thank you.
    Mr. Hansen. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. Mr. Abbey, 
does the BLM have a written policy on the selection gathers?
    Mr. Abbey. Yes, sir, we do and I could certainly make that 
available to you.
    Mr. Gibbons. Would you make it available this week to us?
    Mr. Abbey. We sure can.
    Mr. Gibbons. Thank you. Mr. Abbey, you also heard Senator 
Rhoads talk about a private cooperative management with BLM 
oversight, which could effectively reduce the cost to the 
taxpayers for much of the management and gathering of these 
wild horses. What is your position on his proposal?
    Mr. Abbey. Well actually right now, Mr. Gibbons, we are 
looking at a proposal that has been brought to our attention 
from a ranch in Arizona to use those ranch lands for placing 
horses after being processed at the Palomino Valley corrals 
here in Nevada. We would ship those horses to this ranch in 
Arizona where they would be placed until the adoption cycle can 
pick up so that people can begin adopting those horses.
    Mr. Gibbons. Well, that is the adoption cycle and I 
understand that very well, but I was thinking more of the 
habitat management, range management with wild horses using 
private entities to ensure that there is proper management with 
just BLM oversight of that proposal is I believe what Senator 
Rhoads has indicated earlier, not the adoption process and the 
distribution that he talked about as well, but the management 
of the wild horse habitats and the management of the horses 
themselves being run by the private sector.
    Mr. Abbey. Given the significance of the issues that we are 
facing in this program, we would certainly entertain any 
proposal that Senator Rhoads or others would present to us 
regarding such partnerships. We would weigh those proposals 
based upon the provisions of the Act itself, what we are 
allowed to do either by the Act or by policy and then we would 
certainly weigh the cost benefit associated with the proposal 
to see if it makes sense.
    Mr. Gibbons. Mr. Abbey, you mentioned also and submitted a 
copy of a draft policy on wild horse management practices. Are 
you going to open that policy up for public comment as well?
    Mr. Abbey. Well, the--you are talking about the one that I 
just passed up there?
    Mr. Gibbons. Yes, sir.
    Mr. Abbey. Quite honestly, Mr. Gibbons, I do not know what 
the intent is. It is out in draft, it was presented to the 
Advisory Board, the Advisory Board reviewed it and they made 
recommendations to the Director that it should be adopted. 
Given that, I am not aware of any plans to go out for public 
comment regarding that policy. I would say this, that the 
policy itself is consistent with the 1971 Act.
    Mr. Gibbons. I have also heard you talk earlier about your 
support for the status quo of the 1971 Act without any 
amendments or changes, even though we have seen in testimony 
either through you or the other gentlemen here that there are a 
number of problems both in the management, herd size, habitat 
management, expense of managing all these horses. I am 
perplexed why the administration either through the BLM or 
Department of Interior has not proposed changes up to this 
point that would remediate those concerns and wonder exactly 
why you want to hold the line to the status quo rather than 
moving forward with sound innovative science and solutions to 
these problems that could be effected through legislation.
    Mr. Abbey. Well, not knowing what may be proposed through 
legislation, it is hard for me to address what might be. But 
I----
    Mr. Gibbons. Well this begs the question, why do you not 
propose the legislation.
    Mr. Abbey. I think that there are sufficient flexibilities 
within the 1971 Act that would allow us to address the many 
issues asso-

ciated with wild horses and burros on public land. The actions 
that we take on the public lands have come about through an 
awful lot of public involvement and certainly public input 
regarding the policies that we are adhering to relative to 
management of public lands--excuse me, wild horses on the 
public lands.
    So we believe that staying the course and given the 
sufficient funding to gather the number of excess horses--as 
Mr. Carpenter pointed out, once we achieve AML on public lands, 
I think that would be the biggest hurdle that we have facing us 
regarding this horse issue. And once we achieve AML--based on 
the estimate that I have been given for Nevada--all we would 
need to stay consistent with the AML is gather around 3,000 to 
3,500 horses per year.
    Mr. Gibbons. Mr. Chairman, let me say, as my time has 
expired here, that reaching a 27,000 AML over 27 years seems to 
be an elusive goal that has not yet been met by the Bureau even 
though a quarter of billion dollars has been spent in that 
effort. I am not sure how long, how far and how much we are 
going to have to go to reach that appropriate management level, 
but we certainly need to do something in order to achieve that 
goal. And thank you for the time.
    Mr. Hansen. Thank you.
    Mr. Shroufe, you pointed out that you are Director of Fish 
and Wildlife in the state of Arizona. That means, as I 
understand it, that you have complete care, custody and control 
of all of the animals within the state, is that right?
    Mr. Shroufe. Mr. Chairman, that is correct, the wildlife 
animals.
    Mr. Hansen. Wildlife.
    Mr. Shroufe. Wildlife, that is correct.
    Mr. Hansen. Now these are wild and free-running burros that 
you have got down there and I assume some horses, but you do 
not have any control there?
    Mr. Shroufe. We do not have any control over those, those 
are all governed by the 1971 Act.
    Mr. Hansen. So what do you do as Director when they----
    Mr. Shroufe. Well, we depend on cooperatively working with 
the BLM and trying to ensure that those populations first are 
in line with the goals that we set and second that they are not 
harming the habitat.
    Mr. Hansen. In effect, if they somewhat ruin habitat for 
other types of wildlife, what do you do?
    Mr. Shroufe. The only success we have had so far has to do 
with when we get a biological opinion on an endangered species, 
then the BLM is more apt to prioritize that and take some 
action against that. But when it comes to degradation of the 
habitat for mule deer or just other general wildlife species 
where there is not a Federal hammer hanging over their head, it 
seems like it is not a priority, and I say that probably in a 
lot of unfairness because they are strapped by funding. We just 
need more funding to help us out of this management hole that 
we are in. And I also testified that I guess I felt that the 
Act is not broken, we just need to administer the Act and we 
have not nearly administered the Act in Arizona to the degree 
that BLM has tried to administer it here in Nevada with wild 
horses, we have not got to first base on that.
    Mr. Hansen. It has almost been sacrosanct through the years 
that the local state manages the wildlife within the state.
    Mr. Shroufe. That is correct.
    Mr. Hansen. Fish, game, the whole nine yards.
    Mr. Shroufe. That is correct.
    Mr. Hansen. And now here we have made an exception, just 
like BLM now has an exception that they are managing a 
monument, the first one in the history of the nation, it's 
called the Grand Staircase Escalante, which is a rather sore 
point with me, but I will not get into it.
    Anyway, carrying that on, I think the comment of our two 
elected officials here is interesting. You know, Senator Rhoads 
points out that possibly the unadoptables should be put on the 
market and say all right--and at that point the market, whoever 
buys them, does whatever they want to do with them, just like 
they do with cattle or sheep or chickens or whatever. What 
would you think--if I asked the two legislators here, what 
would you think if the Congress gave to the state the right to 
manage wild horse and burros with very limited parameters, what 
would you think you would do?
    Senator Rhoads. I think that No. 1, we would ask for sales 
permission. You know, contrary to public opinion, there is a 
lot of wild horses out there today that are actually being 
ridden for saddle horses, and some of them are even showing 
some wild horses. So 100 percent of your wild horses that goes 
through the process of sales authority would not end up being 
slaughtered, I am sure. We would manage down the numbers. I 
have never talked to one rancher that wants to see 100 percent 
of the wild horses taken off of the map, it is the prettiest 
thing you can see, a bunch of wild horses or my stud bunch up 
there on the skyline with the sun setting and so forth. So we 
would manage them down to the appropriate level but we would 
have to have sales authority to do it, I am sure, and we would 
probably put up some vistas and interpretive centers and so 
forth. But we would like the numbers down to where it is 
manageable.
    Mr. Hansen. Senator, I think the key words that you are 
bringing up is you said you would manage them to an appropriate 
level. In other words, you are telling us there would be a cost 
benefit in here, there would be a range benefit in here, there 
would be a benefit for the public to see these horses, type of 
thing. Rather than just say whatever it is we are going to pay 
it.
    Senator Rhoads. Yes.
    Mr. Hansen. And by that, I would also assume that you would 
cull the herd if old and sick ones were there and that you 
would reduce it to the amount that you could manage on a 
certain range area and that they would probably have 
veterinarians look at them and take care of them and all that 
type of thing. Would that be a correct statement?
    Senator Rhoads. Oh, very definitely. We would manage them 
just like we manage our cow herds today.
    Mr. Hansen. Mr. Carpenter, did you want to respond to that?
    Mr. Carpenter. I certainly basically agree with what 
Senator Rhoads has said. I just think that the state could do a 
much better job of managing the horses than the BLM has or the 
Forest Serv-

ice, and I think cooperatively with all of the entities in 
Nevada working together that we could get a handle on this in a 
short period of time. We either have to have the right to sell 
the horses or we have to have the right to, like I said before, 
to put the unadoptables to sleep. But I think that we could do 
it and I think that we could probably do it with much less cost 
than the BLM is doing it. Another thing Senator Rhoads 
mentioned is interpretive centers or whatever, I think that is 
very important to have that. The way it is now, people that are 
interested in wild horses, they do not know where to go to view 
these animals. They are riding down the road and most of the 
time, you know, when they have got enough job to keep the kids 
quiet and keep the car on the road, let along to look for some 
horses. But if they knew where to go and these horses were 
managed properly within these centers, I think it would be a 
great thing for the people that really appreciate those horses.
    Mr. Hansen. How do you think the Senate and the General 
Assembly would respond?
    Mr. Carpenter. I believe that we would respond very 
favorably because like I said before, we had a bill adopted to 
come up with a Nevada plan and I think it passed unanimously, 
and I think it is a problem we have here in Nevada and I think 
that Nevadans are used to taking care of their own problems.
    Mr. Hansen. Mr. Abbey, it is kind of sacrosanct in this 
country if I read the Constitution right, the private property. 
What do you do if you get wild horses on private property that 
you folks, Federal Government, BLM, is responsible?
    Mr. Abbey. If the private landowner has such horses that 
have crossed from public lands onto private lands, all he has 
to do is give one of our closest offices a phone call and we 
will go gather that horse or the horses.
    Mr. Hansen. And if there are horses on his property, say he 
has a very large ranch, you will go out on that ranch with his 
permission and remove those horses, is that right?
    Mr. Abbey. That is our standard policy.
    Mr. Hansen. Have you ever done a cost/benefit analysis on 
what this wild horse thing costs us per horse?
    Mr. Abbey. I have not done one personally but I can tell 
you that it is not cost beneficial. There is quite a bit of 
subsidy associated with this program. We have never tried to 
hide that fact. Again, what we are doing is following the law 
and the policies that have been enacted by the Bureau of Land 
Management as a result of public input.
    Mr. Hansen. Cannot argue with that, I think you are right, 
but there is no cost benefit and there is a huge subsidy here.
    Mr. Abbey. There is a huge subsidy.
    Mr. Hansen. Sometime Congress is going to have to come to 
grips with the Endangered Species Act, the Horse Act, things 
such as that. When you are going to put out $200,000 per desert 
tortoise in an area, that gets awfully expensive. But anyway, 
that is just my own humble opinion, it does not matter here.
    Thank you. We thank the panel for your very interesting 
comments and we will look forward to your written statement. 
One thing as I read your draft here that you just submitted, it 
does not say a thing about adoptables, which worries me a 
little bit. Was that brought up when you discussed it?
    Mr. Abbey. I was not at the meeting, but I can tell you 
that the older unadoptable horse is the biggest challenge that 
we have in this program--what do you do with those older 
unadoptable horses.
    Mr. Hansen. Thank you so much for your testimony, we 
appreciate it and we will excuse this panel and call our next 
panel.
    Our next panel is Anthony Lesperance, Ph.D., Elko County 
Commissioner; Rey Flake, Lincoln County Commissioner and John 
Balliette, Eureka County Natural Resources Manager. Have I got 
that all right? I hope I did.
    Commissioner, we will start with you, sir.

      STATEMENT OF ANTHONY LESPERANCE, Ph.D., ELKO COUNTY 
                          COMMISSIONER

    Mr. Lesperance. Thank you, Mr. Chairman, members. My name 
is Tony Lesperance, Commissioner, Elko County.
    I would like to take a little different tack in this. This 
statement presents factual data obtained entirely from the BLM 
sources, be it the web page or FOIA requests.
    Initially, Congressional funding for this program remained 
low, first exceeding one million dollars in 1975. Funding 
remained below $6 million annually until 1985, when it jumped 
to over $17 million and it has remained in the $15 million to 
$17 million range ever since. To date, Congress has spent $246 
million on this program. I guess one could logically ask has 
the expenditure of nearly one quarter of a billion dollars of 
taxpayers' money resolved the horse problem by achieving the 
stated BLM goal of obtaining the appropriate management level 
or what is known as the AML, which means a stable population of 
27,000 animals.
    The first year of agency reported numbers was 1976 when the 
population was estimated at 60,100 head. That number remained 
nearly constant through 1984. A significant increase in the 
appropriation occurred in 1985, which resulted in a decrease in 
numbers. However, since 1987, the decrease has been minimal.
    Data from the estimated year end horse and burro population 
is presented in what you have before you in table 2. In an 
attempt to understand the significance of data in table 2, four 
mathematical representations of the set of data were 
considered. The best overall fit of a mathematical expression 
of the data was obtained using logarithmic equation. What this 
indicates is that as the population approaches the AML, the 
more difficult it will become to obtain the AML. The 1976 
determined level of horses and burros was 60,100 head. The 
stated AML was 27,000 head. The 1996 estimated year end 
population was 42,138 head. Thus, after 21 years, some 54 
percent of the goal has been obtained. If these data were 
indicative of a straight line regression equation we could 
assume in about another 20 years of reduction at the present 
rate of budget allocation, the AML goal would be attained. 
However, the data indicate that this is not a straight line 
relationship, that in fact every year the goal becomes more 
difficult to attain. The above equation is telling us plain and 
simple the stated AML goal, given the present parameters will 
never be attained.
    Between 1976 and 1996, some 164,581 animals have been 
removed for an average annual removal of 7,837 head. Initially, 
this level of gather seemed to bring the population down, but 
as the data in table 2 clearly indicates, its effect is 
becoming less and less with each passing year. Congress tripled 
appropriation for the program in 1984, going from $5.8 million 
to $17 million. During the following 3 year period, some 40,606 
head were removed, yet the year end population decreased only 
17,000 head. It is common knowledge that when numbers of any 
population are reduced, there is a tendency for that population 
to increase its reproductive rate. Sometimes the remaining 
population will simply be younger, more dynamic, resulting in a 
better rate of reproduction. Sometimes it is a built in 
function of the population being more in balance with its 
ecosystem. Regardless, it would be very predictable that the 
free roaming horse and burro population of the western states 
would significantly increase its reproduction rate after some 
67 percent of the population was removed over a 3-year period, 
and apparently that is precisely what happened.
    If numbers are to come down to the AML, the projected 
numbers for removal will have to be increased if the goal is 
ever to be attained. Practically, can this be accomplished with 
the bureaucracy associated with a Federal organization such as 
the BLM? An examination of the budget for the program for the 
period of 1990 to 1994 suggests why this will be difficult to 
accomplish, which appears in your table 4. In 1990, some 20 
percent of the budget for the program was spent on overhead, 
but by 1994, this had increased to 33 percent of the budget. It 
is predicable that the bureaucratic cost of operating the 
program will escalate to the point that annual gathers will 
decrease in numbers so that year end populations will likely 
start increasing. It is obvious that the Wild Horse and Burro 
Act will never be able to accomplish the AML goal of 27,000 
head without significantly increasing Congressional funding. 
Further, it is also obvious that maintenance of an AML will not 
be accomplished, if ever attained, without significant 
longstanding financial support.
    The cost of removal of a single horse since the inception 
of the program is now nearly $1,400 per head, which will only 
continue to escalate. At some point, the patience of the 
average American taxpayer must be considered. As a taxpayer as 
well as a county commissioner, I must strongly urge you to 
realistically consider alternative concepts such as privatizing 
the gather and simply using the BLM for licensing and 
overseeing. Provisions could really be made for a dual program 
of adoption and humane disposal to cover the cost of operation. 
The Congressional management of the wild horse and burro 
program is typical of the many resource problems faced in the 
west today. It represents an attempt by Congress to micro-
manage a few million dollar problem that could be managed far 
more effectively at the local or state level.
    A very effective argument can and has been made over the 
very ownership of these animals and that argument does not 
support Federal ownership. They are wildlife within the state 
and in Nevada, wildlife is the property of the state. Perhaps 
the real question for Congress to resolve is not the management 
or the cost of the management of these animals, but in fact to 
determine what truly constitutes a Federal feral horse or 
burro. Correctly resolving that issue will go a long way to 
removing the frustration this program has caused for Congress 
to date.
    Thank you.
    Mr. Hansen. Thank you, sir, appreciate it. Commissioner 
Flake.
    [The prepared statement of Mr. Lesperance may be found at 
end of hearing.]

      STATEMENT OF REY FLAKE, LINCOLN COUNTY COMMISSIONER

    Mr. Flake. Thank you, Mr. Chairman. My name is Rey Flake, I 
am a Commissioner in Lincoln County and I thank you for the 
opportunity to address this Committee and I thank you for your 
interest in the public lands and for making this attempt to 
come to the west to have this hearing.
    I am a fifth generation rancher--at least five generations 
that I know of, of my ancestors have made their living off the 
land. They have passed a great legacy on to me and a great 
legend that we have talked about. I know that there is no way 
to have a viable ranching operation without healthy lands. 
Lincoln County is 98.2 percent public lands. Public land 
management has a great impact on Lincoln County and our ability 
to provide services to the people that reside within our 
boundaries. I have at least two generations following behind me 
in the ranching business.
    The other day, I went to a branding with my sons and we 
took a break. I noticed that there was seven boys there from 10 
down to one and a half, that was involved in what we were 
doing. The realization came to me that among these young boys 
not only the future of the livestock industry but the future of 
healthy viable resource management was there. If we do not 
bring them up with a love for the land and teach them how to 
manage well, then our nation and our resources are going to be 
the great loser.
    I have a great concern for the direction that is being 
taken on public lands, a little AUM cut here and there that 
amounts up to a lot over the aggregate, over the total period. 
It amounts to our ability to be economically independent. I am 
able to perform services in my operation because I have the 
economic ability to be there.
    Wild horses and burros, it is amazing to me that since the 
Wild Horse and Burro Act of 1971, all of the players that seem 
to know how to manage wild horses and burros were immediately 
set aside and forgotten and a new team came in and tried to 
manage the horses and burros. We have not even identified how 
many the resource can handle--21 years and we do not even know 
what the appropriate AML is. The adoption program is slow and 
inefficient at best. It was reported to our Resource Advisory 
Council in March that over 6,000 head were in the adoption 
pipeline at a cost of nearly half a million dollars a month. 
Today, there are still over 4,000 in there with a great cost.
    Correct science will show that there is a limit to what the 
resource can handle. The adoption program states that if we 
cannot adopt the horses, we turn them back on the range. We are 
letting the adoption run the whole program and not the 
resource. If I had a pasture that would run 40 cows and I put 
80 cows in that pasture, I know that in a short time I am going 
to use up all the avail-

able feed. Then I will not be able to go back to the 40 cows, I 
will have to completely remove the cows until new feed is grown 
and so I can go back on there with an operation. We should 
understand that our whole horse program is in jeopardy if we 
cannot control them to manage and take care of the resource. We 
must check the direction of the whole wild horse and burro 
program. If you are trying to find a point with a compass, if 
you are two degrees off when you start, when you get out there 
100 miles there is a wide gulf between where you were trying to 
go and where you end up. We must continually recorrect the 
course and redirect our area, and this has to be done through 
help from local people.
    What are we trying to accomplish with the wild horse and 
burro program? Is this truly to be a legacy of the old west? I 
find it offensive that people think that my ancestors did not 
manage better than what is being managed in the wild horse and 
burro program, that we just turn them loose and let them run 
wild and do not take care of them. We have created a bureau 
that has accountability without--that has authority without 
accountability or responsibility, the fact is a whole 
department. Nowhere is that more apparent than in the wild 
horse and burro program.
    This program has to be a resource driven program and not an 
adoption driven program. The BLM needs to have sale authority 
if only on a one time basis to achieve appropriate management 
levels. It is estimated that in the Ely District there are 
presently about 2,000 head over AML and about 13,000 head over 
in the state. We must control the numbers. We have got to 
manage, we must have a quality program and not a quantity 
program. We should involve local government and local 
permittees. I believe we should allow the permittees in some 
areas to control the horse numbers under the direction of the 
BLM. This could be done on a trial basis with a few ranchers at 
a great savings to the taxpayers of this nation.
    We need to consider the idea of having one or two herds of 
horses in each state. These could include, as has been said, 
interpretive centers, a place where people could park their RVs 
and come to center their vacation around and learn about horses 
and be involved in horses and gain more enjoyment from their 
horses and then we would truly begin to develop a legacy of the 
west.
    Ranching on public lands is also a legacy of the west. Let 
us consider the preservation of this legacy. I want my children 
and grandchildren to enjoy the same blessings that I have 
enjoyed from living close to the land. It is going to take us 
all working together to accomplish this. I hope that we can.
    Thank you.
    Mr. Hansen. Thank you, Commissioner. Mr. Balliette.
    The prepared statement of Mr. Flake may be found at end of 
hearing.]

 STATEMENT OF JOHN BALLIETTE, EUREKA COUNTY NATURAL RESOURCES 
                            MANAGER

    Mr. Balliette. I brought some photographs. These are copies 
and if your Committee would like to have them for future 
reference, I would be happy to leave these with you. A 
photograph says a thousand words. Ray touched on it a little 
bit, I would like to talk about accountability also.
    In the winter of 1993-1994, we had an extensive snow 
followed by a lengthy cold period. This animal died standing up 
trying to punch his way through a snowdrift. This is an animal 
that died right alongside the Railroad Pass, the road that 
connects Jiggs, Nevada with Diamond Valley, this animal was 
very weak. Notice the damaged sagebrush up here, they had 
tramped it and eaten it. Sagebrush is not a nutritious nor 
palatable forage plant. This animal, weakened by starvation 
could not make it over a berm left by a snow plow, died right 
next to the road. Here is another one, a mare and her colt, 
this is the south facing aspect with the rocks there. The snow 
would melt a lot faster here than in the adjacent areas. The 
mare undoubtedly drawn down by starvation and then she had the 
added effect of nursing a colt. Well, the mare died first and 
you can see where the colt had tried to suckle the dead mare 
before he finally died.
    In terms of accountability, if I owned those animals, my 
accountability would be I would probably have animal violations 
charged--filed against me, you know, and rightly so. I am not 
suggesting that we should start filing charges against BLM 
folks, but I really feel strongly that when we have these die 
offs like have occurred twice in the last 5 years, Railroad 
Pass, Long Valley, several other places in central Nevada, 2 
years ago at the Nellis Air Force range. When these die offs 
happen, we should take a review of this and say hey, was there 
some information we could have collected that would have, you 
know, predicted that this was going to happen, could this have 
been avoided? Are people collecting all the information 
necessary to make management decisions? And if they find some 
folks that are not--that may be in some way responsible for 
this, perhaps their talents should be used elsewhere besides 
the horse program.
    In my written testimony I talked about Fish Creek allotment 
and what happened there when BLM does not stand up to their end 
of the bargain for multiple use decision. This is winter fat, 
this is the plant I told you about in my testimony. Winter fat 
is this gray-green shrub here, and it is probably--I will defer 
to the nutritionists, but it is probably the most nutritious 
and palatable range plant that we have as far as a native plant 
in central Nevada. It is also highly desired by livestock, 
horses, wildlife. This photograph was taken in August and this 
is about the time the winter fat has the majority of its growth 
and it is also previous to use by horses. When we went back in 
in February, there is a close up and this is a general view, 
and you can see that there is virtually nothing left. This is 
solely due to horses. The horse appropriate management level is 
75 head. When they flew this in January of this year, I believe 
the number was 230. There is still approximately 500 head of 
horses on the entire HMA.
    The accountability part that really bugs me about this is 
that the livestock industry, it has been pounded into them, you 
cannot treat Federal lands like this. If you do, you will be 
decisioned, your numbers will be reduced, your season of use 
will be changed. This is solely due to horses, there have not 
been livestock since the decision was issued in 1994. 
Basically, you know, the way I look at things is that we as 
citizens are being held to a higher level of ac-

countability to agency decisions than the agency that issued 
the decision.
    When you look at this, the problem is simple, it is too 
many horses. This is not rocket science here, you know. The 
solutions that we have presently are not working. We have an 
adoption program that seems to be the tail wagging the dog 
here, and it cannot handle the excess numbers that we are 
generating as far as horses. I heard mentioned recently--
earlier--of fertility control. On this particular allotment 
when the Bureau did their analysis for a fertility program, 
they estimated it will take 9 to 13 years to reach AML with the 
implementation of fertility control. The problem is this 
degradation is continuing, it is continuing as we speak.
    Just to give you an idea, these are utilization cages. A 
utilization cage is used supposedly to protect vegetation. You 
can see here where the horses have tramped down the cage and 
then the uneven level of vegetation. Well that is what lengths 
they went to get something to eat there. And it is still pretty 
bad. The biologist in me, this is what scares me the most and 
this is a winter fat site that is now a collection of Eurasian 
annuals such as halogeton and clasping pepper weed and various 
mustards. We have converted a very productive site to a patch 
of weeds that are not very productive.
    One of the solutions I hope you would consider is sale 
authority. I envision a different type of sale authority, 
limited sale authority where when we have vast--well, when we 
have population numbers that greatly exceed AML where we are 
doing damage to the range resource, that is an emergency and it 
requires emergency action and perhaps to go back in and sell 
some of the excess numbers right there once you reach AML, then 
sunshine sale authority.
    I see I am out of time.
    [The prepared statement of Mr. Balliette may be found at 
end of hearing.]
    Mr. Hansen. Thank you. I recognize the Committee for 5 
minutes each. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    As I listened intently to the testimonies that were given 
previously as well as our friends now before the panel, I think 
we are beginning to lose what really was the essence as to why 
this Act, how it all came about with Wild Horse Annie and the 
thousands of children across the country, because of the 
indiscriminate slaughtering of horses that ended up in the 
slaughterhouses and became a major aspect of the pet industry. 
And I think this is really the essence. You know when we talk 
about Gene Autry and Hopalong Cassidy and Roy Rogers, bless his 
heart, who just passed away, and John Wayne--we all romanticize 
the idea that horses are pets, they are not like cattle that we 
eat and consume. And so we come to this--now look at this 
situation, we could not have asked for a worse agency to manage 
horses because they are not experts in managing horses. And I 
am talking about the Bureau of Land Management, with all due 
respect. It just happens to be that horses were incidental to 
the public lands which is owned by the Federal Government, 
administered by the Bureau of Land Management, so they had to 
come up with some kind of a program. And now we end up with a 
$247 million expenditure in the 27 year pe-

riod that we have not even accomplished doing that which we 
were trying to do, to protect wild horses and burros and to 
continue the pioneer spirit that horses were a beast of burden, 
they were really a help to man. And I do not know if my 
colleagues are aware, I am sure they may be, and members of the 
public here, horse meat is found in the most expensive 
restaurants in France and New York and Paris. When we talk 
about consuming horse meat, you do not want to hear that in 
America. And I think this is really the bottom line. We talk 
about slaughtering horses and we put them to sleep, because we 
treat them almost like fellow human beings, or are they to be 
used for economic reasons. I am very curious what percentage of 
horse meat goes into the pet industry, the pet food industry--
what it was 27 years ago and what it is now. So I think this is 
really the bottom line issue that I would like to pursue.
    And gentlemen, do not get me wrong, I really, really 
appreciate your testimony. Mr. Balliette, I think you hit it 
right on the nail. You have reaffirmed the fact that we just 
have done a very poor job in managing what millions of 
children, hundreds of thousands of children throughout America 
just did not like the idea of indiscriminate slaughtering of 
horses, as a sentimental value--and I for one look at horses 
almost as a fellow human being, and this is really the crux.
    Now it has been suggested that we ought to give it to 
states to manage our wild horses. It just happens that these 
horses are not on state lands, these are on Federal lands. So I 
raise that question, Mr. Chairman. I do not have any questions 
of our witnesses, but I would like to add I want to thank you 
for your testimony.
    Mr. Hansen. Thank you. The gentleman from California, Mr. 
Pombo.
    Mr. Pombo. Thank you, Mr. Chairman.
    Mr. Flake, you are a cattleman and we looked at figures of 
as much as $1,400 per head on management of these animals for 
every one that is removed. That seems way out of line to me in 
terms of management of livestock. Can you give the Committee an 
idea of what the annual cost is of an animal say on your ranch?
    Mr. Flake. Our cost of operation is just a little over $250 
a head on the ranch.
    Mr. Pombo. So you would consider this figure high?
    Mr. Flake. Absolutely, unreal.
    Mr. Pombo. And am I to understand that you run cattle on 
public lands?
    Mr. Flake. Yes, sir.
    Mr. Pombo. What would happen if you managed your allotment 
to the degree of these photos that we have seen?
    Mr. Flake. I would be out of business, both from regulation 
and also out of business because there is no way to handle a 
livestock operation without available forage, without available 
feed--it cannot be done.
    Mr. Pombo. I would like you to explain the first part. You 
said you would be out of business because of regulation. What 
do you mean by that?
    Mr. Flake. I mean that if I could not do any better job on 
the public lands than that, the Bureau would pull my permit and 
I would be gone.
    Mr. Pombo. Because you overgrazed it?
    Mr. Flake. Because I overgrazed and I overused the 
resource.
    Mr. Pombo. So if you did manage that way and say BLM 
allowed you to continue to manage in that way, what would 
happen to your livestock herd?
    Mr. Flake. It would be non-existent. They would die off. If 
I do not put some correct management to my herd, why I cannot 
stay in business, I cannot be economically feasible, I cannot 
finance myself there on the land any more.
    Mr. Pombo. You say that the animals would die off, they 
would die off because of starvation?
    Mr. Flake. Absolutely.
    Mr. Pombo. Do you have any idea how long it would take an 
animal to get to the condition that--Mr. Balliette had pictures 
of animals that he claims starved to death. How long of a 
period of time are we talking about here that an animal does 
not have enough feed to get to that kind of condition?
    Mr. Flake. To have them get to that kind of condition would 
take 3 or 4 months of absolutely no feed.
    Mr. Pombo. Three or 4 months?
    Mr. Flake. Well, it depends on the condition they were when 
they began to be stressed. If they were in fat condition, they 
could probably live off their back fat for 2 or 3 months before 
they went down. If they were thin and already stressed, then it 
is a matter of a couple of weeks before they are to that point.
    Mr. Pombo. Obviously the public has a concern about wild 
horses, that is why the Act was passed to begin with. Do you 
consider that humane, to manage in that way?
    Mr. Flake. I certainly do not and that is why I feel 
affronted when they talk about leaving wild horses out there in 
uncontrolled numbers and degrading the range and suffering 
theirselves as a legacy of the west. That is not the legacy 
that was passed on to me. My ancestors managed their land and 
they managed their livestock and they would never allow 
anything like that to happen.
    Mr. Pombo. One final question for you. What would you do if 
you did not have enough feed to feed the horses and cattle on 
your ranch?
    Mr. Flake. I would sell them. I might, for a short time, 
step out and try to buy feed to hold on, but usually that is 
futile, you are better to sell and get out and send them to 
slaughter or to somewhere where they can be properly taken care 
of. You do not just stay there and beat out the resource 
because then it is not going to come back and then you are not 
going to ever get back in business. You have got to make some 
moves to take care of the resource that you are living on.
    Mr. Pombo. Thank you.
    Mr. Hansen. Thank you. The gentlelady from Idaho, Mrs. 
Chenoweth.
    Mrs. Chenoweth. Mr. Chairman, I have no questions. I just 
wanted to compliment the members of this panel for the quality 
of their testimony and for the addendums that you added to your 
testimony. It is very, very helpful, and the photographs were 
startling. Thank you very much.
    Mr. Hansen. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    I would like to start with Commissioner Lesperance if I 
may. Commissioner, we have heard testimony from the BLM, we 
have heard also testimony from you about the amount of money 
over the years that has been spent on herd gathers, herd 
management, the amount of money per year going from $5 million 
to $15 million or somewhere in that approximate figure. Is it 
your opinion that more money is the answer to this problem?
    Mr. Lesperance. Well, it certainly is not my opinion that 
money is the problem. You folks can throw a lot of money at a 
problem, I have seen that on several other occasions, and you 
can sure throw a lot of money at this problem and you are going 
to have to throw a lot of money at this problem if you continue 
to operate under the same set of circumstances because $15 or 
$17 or $18 million is losing ground. I would suggest you are 
probably going to have to about double that, but I again remind 
you to look very carefully at the data in the back of my--the 
last table, table 4 in my presentation because it shows you the 
very problem and that is the bureaucracy of the BLM. The 
overhead management of this program is escalating 
logarithmically and will continue to do so. That is just common 
knowledge of how the bureaucracy operates, the more money you 
put in, the bigger the overhead becomes and you are creating a 
monster. And let me assure you if you ever get these numbers 
down to 27,000 head and you are going to manage them at 27,000 
head using the Federal bureaucracy to do it, you folks better 
be prepared to cough up a lot of money for a lot years because 
that is what it is going to take.
    Mr. Gibbons. Dr. Lesperance, in your number of years that 
you have been either a professor at a university or a rancher 
or directly involved in business or in your role as a county 
commissioner, do you have any suggestions for this Committee on 
how to better improve the management and the cost effectiveness 
of that management for these herds of horses?
    Mr. Lesperance. I think you have got to bite the bullet and 
you have got to go back to the local level. I think the only 
people that can manage this exist at the local level, and I 
believe strong county government can take a big step in this 
direction. I also believe the state can. And I view these as 
wildlife and I would also suggest you look very closely at the 
attachment to this under Exhibit A, and that is a legal opinion 
rendered by Zane Miles, Deputy District Attorney for Eureka 
County for a recent case which was just ruled in favor of the 
State of Nevada versus the United States in Douglas County. And 
that statement clearly indicates these are wildlife and they 
should be managed by the state and he goes through a number of 
very legitimate legal arguments in this--on this behalf. And I 
think we have to look at this very seriously and bring this 
back to the local level and I think we can do this.
    These animals were managed rather humanely for a long 
period of time by local people. I am a product of that, raised 
a product of that. These animals were not hurt. The healthiest 
animals from a horse standpoint I ever saw on the public lands 
of the west were those that were managed humanely before this 
Act occurred.
    Mr. Gibbons. Dr. Lesperance, one more question. I heard my 
colleague from American Samoa talk about the fact that these 
are wild animals on public Federal land out there in Nevada. Do 
we also manage other wild animals that range over public lands 
on a state level?
    Mr. Lesperance. Do you mean you the Federal Government?
    Mr. Gibbons. No, the State of Nevada.
    Mr. Lesperance. Oh, the State of Nevada owns the wildlife 
and manages the wildlife.
    Mr. Gibbons. On Federal lands.
    Mr. Lesperance. Yes. And I might add that due to the recent 
court decision in Douglas County, we also own the water. And 
that may become a very critical issue in this argument as it 
unfolds.
    Mr. Gibbons. Thank you. Mr. Balliette, in the remaining 
time I have left, I think your point is that it is not total 
elimination of these horses that we are after, it is not cows 
versus horses, but rather it is proper and appropriate herd 
management levels, it is herd health and it is habitat health. 
Did that summarize your testimony?
    Mr. Balliette. Yes, it did.
    Mr. Gibbons. Do you have any suggestions for this Committee 
as far as achieving these goals?
    Mr. Balliette. One thing that--well, it goes back to the 
issues I brought up about accountability, when the Bureau fails 
to take an action to reduce horses to AML, their inaction is 
really an action and that inaction is causing environmental 
degradation and I believe that should be out for public review, 
either in addition to the record of decision or something along 
those lines. Let us put it past the citizens and see if they 
really agree with what is happening and their failure to reach 
appropriate management levels.
    Mr. Gibbons. Thank you. Mr. Chairman, I see my time has 
expired, but I think from the testimony we have heard here 
today, it is clear that the Federal Government needs to be held 
to the same standards that it holds the American citizens and 
the American public to. I think that would be fair to say. 
Thank you, Mr. Chairman.
    Mr. Hansen. I thank the panel for their excellent testimony 
and we will excuse you and move to the last panel.
    The last panel is Sheila Hughes Rodriguez, Counsel, Animal 
Protection Institute; David and C.J. Tattam, Field Directors, 
National Wild Horse Association; Demar Dahl, rancher; and Cathy 
Barcomb, Commission for the Preservation of Wild Horses. I 
think I got all those in. You all understand the rules, but we 
are pretty lenient this morning, so whatever works. We will 
start with Sheila Hughes Rodriguez. The floor is yours, as we 
say in our business.

     STATEMENT OF SHEILA HUGHES RODRIGUEZ, COUNSEL, ANIMAL 
                      PROTECTION INSTITUTE

    Ms. Rodriguez. Thank you for inviting me to testify before 
the Subcommittee this morning. My name is Sheila Hughes 
Rodriguez, I represent the Animal Protection Institute. API is 
a non-profit animal advocacy organization with over 80,000 
members nationwide. For more than 20 years, API has worked to 
preserve and protect wild and free-roaming horses and burros on 
their habitat.
    This hearing focuses on range issues and problems with the 
Wild Horses and Burros Act. Indeed I believe there are several 
problems with the Act and how the BLM interprets and 
administers it. I will concentrate, however, on API's most 
critical concern.
    The BLM's current policy on roundups is extinguishing 
populations of wild horses and burros throughout the country. 
While I may criticize the BLM today, I am not here to deliver a 
jeremiad on animal rights. Yes, I believe animals are entitled 
to fundamental rights. But I also know that we inhabit a legal 
universe that is hardly sympathetic to animals, much less to 
the notion of animal rights. Yet, we have a long history in 
this country of using the law to protect wild horses and 
burros.
    In 1959, at the behest of the late Velma Johnston of Reno, 
Nevada, Congress passed the first law intended to protect wild 
horses and burros. I am told that Ms. Johnston adopted the name 
Wild Horse Annie after she overheard someone call her that at a 
Congressional hearing in Washington. Perhaps it was this sense 
of humor that helped Ms. Johnston through the following decades 
in her quest to protect these animals.
    In the late 1960's, Wild Horse Annie's efforts led 
thousands of school children across the country to write to 
Members of Congress urging them to protect these animals. 
Nicknames notwithstanding, by the early 1970's, Wild Horse 
Annie had rallied the support of both humane associations and 
horse protection groups, culminating in the passage of the Wild 
Horse and Burros Act in 1971.
    If we look at the legislative history of the Act, we see 
that Congress unequivocally intended these animals to be 
protected and preserved. Quoting from the Senate report, ``The 
wild free-roaming horses and burros presently inhabiting the 
public lands of the United States are living symbols of the 
historic pioneer spirit of the west and as such are considered 
a national esthetic resource.''
    As I said earlier, I am not here to lament the state of 
animal rights. I am here to discuss the state of the law and 
what we might do to save these living symbols of our own rugged 
independence and pioneer heritage.
    When Congress passed the Act, it declared ``. . . wild 
free-roaming horses and burros shall be protected from capture, 
branding, harassment or death; and to accomplish this they are 
to be considered in the areas where presently found, as an 
integral part of the natural system of the public lands.''
    The regulations implementing the Act amplify this 
protection, ``(a) Wild horses and burros shall be managed as 
self-sustaining populations of healthy animals in balance with 
other uses and the productive capacity of their habitat.''
    Today, however, the BLM is failing to manage herd areas as 
self-sustaining populations of healthy animals. The BLM's 1995 
report to Congress describes numerous herd areas with AMLs of 
zero and many areas with AMLs that will not sustain healthy 
populations.
    In Nevada, the agency plans to extinguish 10 herd areas. A 
1975 Nevada District Court case, discussed more fully in API's 
written statement, strongly suggests that the BLM is not 
authorized to extinguish wild horse populations. That case was 
American Horse Protection Association v. Frizzell.
    The Federal Land Policy and Management Act of 1976, or 
FLPMA, provides that the Secretary of Interior ``shall use and 
observe the principles of multiple use and sustained yield''.
    Under FLPMA's multiple use mandates, BLM cannot give 
livestock grazing any priority of use. One case vindicating 
this principle is National Wildlife Federation v. Bureau of 
Land Management, decided just last year.
    In conclusion, the BLM is actively extinguishing wild horse 
and burro populations in violation of the Act. It remains to be 
seen whether in carrying out this policy, the BLM is complying 
with other applicable laws.
    If the BLM would seriously weigh the effects of livestock 
grazing in its land use decisions, it would be free of the 
ongoing burden of endless wild horse roundups. With public 
lands producing so little of the feed consumed by beef cattle, 
is such a shift in policy so politically impossible?
    For all of these reasons, API recommends the following:

          1. Wild horse removals must not eliminate individual 
        herd areas or lower the number of animals to a level 
        that threatens the long-term survival of the herd.
          2. The BLM must take into account the adoptability of 
        the wild horses removed, as well as the impact of the 
        removals on the remaining family and bachelor bands.
          3. The BLM must not schedule roundups during periods 
        when gathering would place undue stress on foals and 
        pregnant mares.
          4. The BLM must consider decreases in wild horse 
        populations as part of a comprehensive plan to improve 
        range management and it must be accompanied by an 
        equivalent reduction in the number of grazing 
        livestock.
    If I may continue, I just have one paragraph. If, as API 
believes, the Wild Horses and Burros Act protects these animals 
from extinction, API is willing to work with BLM to achieve 
this goal. If the Act does not protect these animals, then 
Congress must amend it or propose new laws that will save these 
living symbols of the historic and pioneer spirit of the west.
    Thank you.
    Mr. Hansen. Thank you. Mr. Tattam.
    [The prepared statement of Ms. Rodriguez may be found at 
end of hearing.]

 STATEMENT OF DAVID C.J. TATTAM, FIELD DIRECTOR, NATIONAL WILD 
                       HORSE ASSOCIATION

    Mr. Tattam. I would like to take this opportunity to thank 
you all for coming here today and exploring this issue. My name 
is David Tattam, I am the Field Director of the National Wild 
Horse Association. I have 27 years experience in the horse 
industry. For the last 14 years, I have served as a volunteer 
to the National Wild Horse Association, working with the BLM, 
National Park Service and the U.S. Forest Service. In that 
time, I have had on-the-ground experience in over 40 herd 
management areas in four states. It has been interesting as 
well as very enlightening.
    There seems to be an enormous difference between the 
public's perception and the reality of how horses are handled 
by the BLM, the number of animals that are on the range, what 
horses need to thrive and the eventual outcome if horses and 
burros are not managed.
    The National Wild Horse Association is headquartered in Las 
Vegas, Nevada, it was founded in 1971 by people concerned with 
the survival of wild horses and burros in the west. Our 
association is made up entirely of volunteers with no paid 
positions. Over the last 27 years, we have worked with the 
National Park Service, the U.S. Forest Service, the BLM to 
improve the range and secure a future for wild horses and 
burros. We have worked on range projects, gathers and 
adoptions. Over the last 7 years, we have hand raised over 500 
foals for the BLM. We have also assisted in putting on training 
clinics, conducting pre- and post-adoption compliance checks, 
helped to monitor and care for animals involved in neglect or 
abuse cases and provided medical care for injured animals 
brought in from the range.
    Most currently, we have had members assisting at the gather 
near Vernal, Utah of suspected EIA horses. We were there to 
observe and assist in the gather and to implement a care and 
feeding program for infected foals.
    In the last 7 years, our association has logged over 70,000 
volunteer hours. This is one reason why the Las Vegas District 
has had few problems with the adoption program and why the 
number of wild horses and burros in southern Nevada is closer 
to AML now than at any time since 1971.
    However, across the nation, the adoption program is falling 
short with a devastating effect on the resources of the west. 
In many parts of the country, there is a large demand for wild 
horses and burros, yet there seems to be a breakdown in the 
system. Adoptions are a lot of work and in many cases the 
people responsible do not seem to be putting forward the effort 
to inform and qualify potential adopters. Some suggestions 
would be a greater accountability to BLM personnel, better 
marketing and a greater use of volunteers in the adoption 
program. For example, develop regional adoption teams 
consisting of BLM personnel and volunteers to facilitate more 
successful adoptions, post-adoption compliance checks, et 
cetera.
    Another problem with the program is that many older, 
unadoptable horses are being gathered repeatedly with the 
government paying out again and again only to be re-released 
because there is no outlet for them. Because of the 
government's inability to dispose of these animals, they are 
allowed to remain in often overgrazed HMAs. This is a true 
threat to the wild horses and burros of the west.
    There must be a way of dealing with large numbers of 
unadoptable horses that are currently being allowed to 
overgraze the ranges in many of our HMAs. In many areas, by 
allowing these horses to remain on the range today, we are 
destroying the chance of a future for the wild horses and 
burros. One suggestion would be to give BLM a limited sale 
authority to dispose of unadoptable animals. This window would 
be a limited time, for example three to 5 years, and give the 
BLM time to go through all HMAs and obtain appropriate AML, 
according to range conditions, with room for herd enlargement 
once range conditions are improved. This would turn future 
management into a planned maintenance rather than the current 
management by crisis which we are so often forced to deal with 
when starvation from overgrazing and drought have their 
effects, as we see here in Nevada.
    The management system must be changed from a demand system 
in which horses are gathered only to the availability of space 
in the adoption program, to a resource driven program in which 
decisions are based on what is good for the resource.
    Implementation of the Wild Horse and Burro Act is virtually 
impossible without either sale or euthanasia authority or 
massive funding for the sanctuary program. To reach any 
reasonable management goal without one or all of the above, 
ensures adverse impacts to the range.
    It often appears BLM in Washington has little confidence in 
its people in the field. This affects the wild horses and 
burros in many ways. One recent example is the last two gathers 
on the Nevada Wild Horse Range. In January 1997, a gather was 
stopped due to the number of old and sick animals which were 
being euthanized even though this is and--was and is consistent 
with Bureau policy. Later that year, the BLM conducted another 
gather of the same horses and moved the old horses to 
sanctuary. The following winter there was concern from 
Washington due to the high death rate amongst these horses, 
most of which should have been euthanized at the time of their 
first capture. The estimated cost of the second gather was half 
a million dollars. Sanctuary cost is unknown. All this money 
could have been saved by letting the experts in the field do 
their jobs. If those people cannot be trusted to do the right 
thing, then the Bureau needs to get people who can be.
    It seems that many problems start in Washington with the 
appointment of each new Director. By the time he appoints 
committees to study the problems and report back to him, he is 
gone and a new person has taken his place and the cycle starts 
over again with new studies and committees. A workable plan is 
never implemented. The only way any resource management agency 
can work is to eliminate political appointees and require that 
the director have a strong resource background. Only then will 
the professional in the field be trusted and decisions be made 
using science rather than the knee-jerk political perceptions. 
Washington responds to input from a few select groups, most of 
which have little hands-on experience, but rarely solicits 
opinions or backing from groups that understand the tough 
decisions that must be made with science for the good of the 
horses.
    To ensure the future of wild horses and burros, the public 
must be made to understand that the ranges will be destroyed if 
the resources are not managed properly. Without the ranges, we 
will have no wild horses or burros, no wildlife, no livestock 
grazing, just barren land where nothing can survive. The public 
and all involved government agencies must work together to make 
sure this does not happen. The BLM must do its part by setting 
appropriate management levels in each herd management area, 
reducing the number of animals to at or below those levels, 
depending on current range conditions, and managing these areas 
in a responsible and consistent manner.
    Thank you.
    Mr. Hansen. Thank you. Mr. Dahl.
    [The prepared statement of Mr. Tattam may be found at end 
of hearing.]

                STATEMENT OF DEMAR DAHL, RANCHER

    Mr. Dahl. A lot of the information that I was going to 
present I think has already been presented, so I would like to 
just take a few minutes and talk about one issue that has not 
been covered, and that is removing wild horses from private 
land.
    When Mr. Abbey was asked what the BLM does when they are 
requested to remove horses from private lands, he said they 
just go out and remove them. And I want you to know that is not 
the case in all of the--not all of the instances, but most of 
the instances that I am aware of.
    I have had wild horses on my private land and tried in vain 
for years to have them removed and the BLM has not been able to 
do that. So that is a problem that--in fact, in desperation, I 
issued a trespass notice to the BLM and trespassed them for 
having horses on my private land and have kept track of that. 
In the meantime, I have sold that ranch, but the man that has 
it now has kept track and we know how much the BLM owes, or the 
U.S. Government owes us for the use of private lands by those 
wild horses, which they of course say they do not have to pay. 
But it is a burden, it is not a big problem because it does not 
affect a lot of people but those who it does affect, it is a 
problem.
    I think that it would be a step in the right direction if 
we could have a national recognition that even though the wild 
horse is a symbol of the pioneer spirit of the west, there are 
people out there working the land and running livestock and 
providing food and fiber for this nation that still embody 
within themselves the true pioneer spirit of the west. And 
those horses who are the symbol of the pioneer spirit of the 
west are making it very difficult for some of those to stay in 
business and to survive.
    For instance, I have a friend, in fact the one who is on 
the ranch who has been trying to get the BLM to gather the 
horses from his private lands, has on his winter range right 
now, today, over 300 head of wild horses that will stay there 
all through the summer. Now he has moved his cattle off of that 
winter range to let it regrow and then plans to move back there 
in the fall, that is where he is going to winter his cattle. 
Now because this has been such an exceptional year, he is 
probably going to get by, but on an average year, there is very 
little left for his livestock to go back to. And we do it to 
protect the range. And if you just leave the horses on that 
resource year round, it is very hard on the range.
    We need I think to recognize that the horse is a resource. 
All of us love Bambi and all of us love deer, we all recognize 
that a deer herd has to be managed and we manage them and we 
control their numbers. And how do we do it? We eat them. The 
horse is a resource, there are horses that are good for 
companionship, good for pleasure riding, good for working 
cattle, good for jumping. There are some horses that I can tell 
you, and I have known horses all my life and I love good 
horses, but there are a lot of horses that are just to be eaten 
and that is their best use. And there are plenty of people and 
plenty of pets in this world that are willing to utilize that 
resource. And I think that common sense should dictate that we 
give the BLM sale authority and allow that to happen.
    I would like to throw out what I think are three solutions 
to the problem, and these have been talked about already today:

          1. I think that if the state were to be given 
        management authority, that that would be definitely a 
        step in the right direction. We already manage the 
        wildlife on Federal lands.
          2. I think that if we were to remove all of the wild 
        horses from the ranges but establish horse reserves 
        where people, as John Carpenter talked about, could 
        come and visit and see the horses, but keep all of the 
        horses off of the other areas, I think that would be a 
        step in the right direction.
          3. And I definitely think that if we are not able to 
        do those things or maybe in conjunction with those 
        other things, we should give the BLM sale authority and 
        the money derived from the sale of those horses should 
        stay in the wild horse program so that the taxpayer 
        does not have to subsidize this program.
    And I can tell you right now, there are a lot of wild 
horses, BLM--horses with a BLM freeze iron under the brand, 
that go through the sales to the killer plants today. And any 
horse sales that you want to go to where they put killer horses 
through, you will find a number of wild horses that people have 
adopted and then they find out they have just a mustang and 
this is not really what they wanted, they keep it a year, they 
get title to the horse and they sell it and the horse goes for 
slaughter. So it is happening already, we just need to 
recognize it.
    Somebody is going to have to get tough enough to bite the 
bullet on this. Thank you very much.
    Mr. Hansen. Thank you, Mr. Dahl. Cathy Barcomb, Commission 
for the Preservation of Wild Horses.
    [The prepared statement of Mr. Dahl may be found at end of 
hearing.]

STATEMENT OF CATHY BARCOMB, EXECUTIVE DIRECTOR, COMMISSION FOR 
                THE PRESERVATION OF WILD HORSES

    Ms. Barcomb. Thank you for coming to Nevada. My name is 
Cathy Barcomb, I am the Administrator of the State of Nevada 
Wild Horse Commission. We are a state agency, established by 
the 1985 legislature, for the preservation and protection of 
wild horses on Nevada's public lands.
    My purpose today is to make this introduction and give you 
some idea of what our Commission is doing on a state level. Our 
Commission is made up of members much like yourself in that we 
have representatives of horse organizations, veterinarian, 
humane society representative, a rancher and even an attorney.
    The Nevada Commission was established by the legislature. 
Our mission from the last session of the legislature was to 
prepare a plan for the management of wild horses in Nevada. 
This will be year-long project and our final plan will be 
completed at the end of this calendar year, for presentation to 
the next session.
    The Commission--we are presently conducting a number of 
scoping sessions around the state of Nevada throughout all the 
rural areas and major city areas. We are traveling to every 
part of this state taking testimony and discussing issues and 
problems with the people affected in those areas. When our 
scoping sessions are complete, we will have field hearings in 
every part of the state from Las Vegas to Elko and everywhere 
in between, on the plan that we are preparing.
    You can imagine the testimony we have received is mostly 
from the people in the field, but this is from the people that 
mostly deal with the horse issues on a daily basis. This 
includes not only the ranchers, environmentalists, local 
representatives, but the BLM personnel as well. Let me add that 
the BLM personnel that have been with us in the various 
locations have been extremely cooperative and more importantly, 
have provided vital information for our investigation into 
this. We fully plan on continuing to work with the BLM field 
personnel, the local representatives, the ranchers and 
environmentalists, and involving them in every stage in the 
process of this Nevada plan as it comes together.
    As I stated, my appearance today was intended only as an 
introduction as to what we are doing on a state level, but let 
me leave you with a few thoughts. Whatever comes of our work 
and your work as well, the final acid test in our view is 
whether it works in the field. An effective wild horse 
management plan must meet the objectives of (1) the horses 
themselves, to the end that we have a healthy herd of horses 
and able to stay in balance with their habitat; (2) the plan 
must remember the interests of those directly affected by the 
horses, such as those seeking to preserve the horses in their 
environment or seeking adoption, but not forgetting the other 
multiple uses of the range; (3) and finally, the plan must work 
for those in the field who are on the front lines, charged with 
the responsibility for the management of the program. It must 
be a workable program for all.
    The only conclusion that we have come to, speaking only as 
one representative, but a view shared by others, is that an 
effective program will require more cooperation between the 
states, the affected interests and the Federal Government. Our 
Commission will be addressing this issue on state and Federal 
cooperation and hopefully coming up with ideas on how the 
states can contribute to constructive ways to assist in the 
wild horse management program. Along those lines, we will be 
utilizing all the information that comes out of your 
deliberations and we hope that you will be taking into 
consideration some of our views once they are adopted.
    Our draft plan is scheduled to be on the street the first 
week of August with the final out by December.
    Thank you.
    [The prepared statement of Ms. Barcombe may be found at the 
end of the hearing.]
    Mr. Hansen. Thank you. Questions for this panel? Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. It seems to me, 
Mr. Chairman, after listening to our panel of witnesses, I want 
to commend the State of Nevada for really making a better 
effort than the BLM for taking care of wild horses with all the 
different commissions and the presence of the different groups 
and associations that really do have a real feel for the care 
of these wild animals.
    I want to thank Mr. Dahl for his candor, exactly the bottom 
line it seems of the problems that we deal with with wild 
horses.
    I would like to ask Mr. Tattam, has your National Wild 
Horse Association been in existence before the enactment of the 
1971 law?
    Mr. Tattam. No, it came in at about the same time. People 
saw that with the horses not being allowed to be gathered or 
managed by the ranchers, that there was going to be a need for 
people to step in and help.
    Mr. Faleomavaega. So it is obvious that BLM over the years 
has fallen far short of its given responsibilities, and I 
suspect even under the provisions of the law, while they may 
have stipulated the protection of these wild animals, they 
never really got into the economics. When you put them out 
there in the fields, out our there in the barren lands, they 
cannot exist and maybe this is an area that the BLM has not 
taken its responsibilities in providing for the needs for these 
wild animals.
    So again, Mr. Chairman, I want to thank you and the members 
of our Subcommittee for coming to Reno, Nevada, the birthplace, 
if I might add, of the Wild Horse and Burro Act, thank the 
gentleman, my good friend from Nevada, Mr. Gibbons, for 
allowing us this opportunity to have a hearing here and 
hopefully as a result of this hearing, we will come out with 
some real serious considerations, either by way of 
strengthening the regulations or maybe we may have to amend the 
1971 law to put some more teeth into exactly how we should go 
about protecting these wild animals. Protection and economics 
are the two basic questions. Having a sense of humanity, and as 
I said earlier about Hopalong Cassidy or Gene Autry and all the 
historical aspects that most of us have shared the experience 
of looking at horses truly as pets and friends and not like we 
look at cattle.
    So with that, Mr. Chairman, I want to thank you for 
allowing us to be here this morning, and thank the members of 
the panel.
    Mr. Hansen. Thank you. The gentleman from California, Mr. 
Pombo.
    Mr. Pombo. No questions at this time, Mr. Chairman.
    Mr. Hansen. The gentlelady from Idaho, Ms. Chenoweth.
    Mrs. Chenoweth. I have some questions for Ms. Rodriguez. 
Ms. Rodriguez, you cited the National Wildlife Federation v. 
BLM, a 1997 decision.
    Ms. Rodriguez. That is correct.
    Mrs. Chenoweth. Was that not a BLM hearing----
    Ms. Rodriguez. That was a decision that was affirmed by the 
Interior Board of Land Appeals, it is an administrative law 
decision.
    Mrs. Chenoweth. So it was--it never did make it to the 
district court?
    Ms. Rodriguez. No, it did not, but I also cited the other 
case, American Horse Protection Association v. Frizzell, which 
is a district court case.
    Mrs. Chenoweth. And that had to do with NEPA, did it not?
    Ms. Rodriguez. That and several other statutes, including 
the Wild Horses and Burros Act.
    Mrs. Chenoweth. In the Frizzell case, the court ruled that 
you must do a NEPA statement before putting out horses for 
adoption, right?
    Ms. Rodriguez. Well, I think the gist of the Frizzell 
decision is that there were 600 horses remaining after the BLM 
gather and so the judge in that case said it may very well have 
been a very different case if there had been no horses left 
after the removal.
    Mrs. Chenoweth. In the Frizzell case, did the judge not say 
that this does not give the BLM a blank check to remove horses 
without an environmental impact statement?
    Ms. Rodriguez. I believe that was the case where he said 
that, yes.
    Mrs. Chenoweth. OK. Now is it not--I think some of my 
colleagues sometimes wonder why I do not just go along with a 
lot of pieces of legislation when they say you are not 
conferring any authority to any agencies with this Act, you are 
only making a finding, the Congress finds that--and that is 
exactly, Mr. Chairman, what the Wild Horse and Burros Act is, 
it is a simple finding by the Congress. It reads, ``The 
Congress finds and declares that wild free-roaming horses and 
burros are living symbols of the historic and pioneer spirit of 
the west, and that they contribute to the diversity of life 
forms within the Nation and enrich the lives of the American 
people.'' That is the Wild Horse and Burros Act. And I do not 
find in here, Mr. Chairman, that there is any authority 
delegated to the BLM or any other Federal agency to give a 
preference to the management of the wild horse and burros above 
cattle, the tortoise or anything else.
    I think we have really allowed an agency to stretch its 
authority beyond the finding. And because I live in the west, I 
agree with the Congressional finding.
    I want to thank you for holding these hearings because I 
think it is time that we bring back the management of the wild 
horse and burros to actually what the Congressional finding 
was, and specify what authority has been conferred by the 
Congress to the BLM for the management of the wild horse and 
burros. And I do not believe, Mr. Chairman, that FLPMA mandates 
that the BLM must manage the horses above the grazing rights. 
And in fact, for the record, a recent decision, the Bremer 
decision out of Wyoming, in fact said just the opposite, that 
there is a preference right given to the cattlemen for their 
grazing allotments. And of course, multiple use as defined by 
FLPMA says that all uses should be balanced. And so I want to 
thank you for bringing your Committee out here and I want to 
thank the panelists for all of their good testimony. I have 
learned an awful lot. Thank you.
    Mr. Hansen. Thank you. The gentleman from Nevada, Mr. 
Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    I have very few questions for this panel, but I did want to 
address just a couple to kind of summarize what we have heard 
today. Ms. Hughes Rodriguez, you have expressed a number of 
legal concerns which are going on and the problems that your 
organization sees with the BLM and its management of this herd. 
What specific actions can the BLM do within the existing 
framework that your organization is recommending they do, 
besides the few things like changing the time of year which 
they are going to do these roundups to avoid the foaling 
seasons or to stress--are you suggesting that the BLM stop 
using helicopters or mechanical means of roundup? How do you 
get to some specific recommendations from what you have seen?
    Ms. Rodriguez. I gave specific recommendations in my oral 
testimony. API's true position is that it would like to see a 
moratorium on all wild horse roundups until the BLM administers 
and interprets the law it is charged with administering, 
correctly. I am deliberately leaving wild burros out of the 
equation, for reasons that I think are beyond the scope of this 
hearing, but API's firm position is a moratorium on wild horse 
roundups.
    Mr. Gibbons. Mr. Tattam, in your work around the various 
states that you have worked in, in your position with the 
National Wild Horse Association, do you have a general 
assessment of horse herds, wild horse herds, the health of 
these wild horse herds that you have seen in your work in your 
position?
    Mr. Tattam. Yes, and they vary from state to state and from 
HMA to HMA. You have a lot more overpopulation in northern 
Nevada, central and northern Nevada, than we have in southern 
Nevada. I was up in Vernal a few weeks ago--last week as a 
matter of fact, in Vernal, Utah. They have got--their horses 
are in excellent condition. They have got a gather going on 
there now for some health reasons, but the horses are in pretty 
good shape.
    Mr. Gibbons. What is the health reason they have got the 
gather going?
    Mr. Tattam. They have an outbreak of EIA, equine infectious 
anemia, which is incurable and is very easily spread from horse 
to horse.
    Mr. Gibbons. Contagious?
    Mr. Tattam. Very contagious.
    Mr. Gibbons. Mr. Dahl, you mentioned that wild horses are 
oftentimes found on private property. Have you ever had wild 
horses mix with the domesticated herds to where if there is an 
EIA disease that there is a possibility of spreading that 
disease?
    Mr. Dahl. No, I have not. Before the Act was passed, we 
would manage a small herd of wild horses on the range just to 
have them there and we would gather them periodically and cull 
the studs and put a better stud with them and so on, but now we 
do not--in fact I think in most districts wherever there are 
wild horses, the BLM does not grant a domestic horse permit.
    Mr. Gibbons. Ms. Barcomb, thank you for being here and I 
appreciate the work you have done on the Nevada Commission on 
the Preservation of Wild Horses as well. Your scoping hearings 
around the state have provided a great deal of invaluable 
information I am sure. You have also indicated that your 
Commission's conclusion will be out in about 2 weeks, the first 
part of August. Is there any way you can share some of your 
conclusions at this point in time with the Committee; and then 
the second part of my question, since the time is elapsing, 
does your plan and its objectives vary from the BLM's 
management plan for wild horses in Nevada?
    Ms. Barcomb. Thank you. I think it may be a little 
premature to talk on the conclusions we have drawn because the 
initial report that we are putting out is a compilation of all 
the testimonies we received, what we found to be problems and 
we had two forums, in April and May, that invited all the 
interests to come to help us write the plan.
    Mr. Gibbons. Would you be willing as soon as that plan is 
available to providing this Committee with a copy of it so that 
we have it for our work as well?
    Ms. Barcomb. Yes, sir, immediately.
    Mr. Gibbons. Is there a difference between the objectives, 
or is that objective also included in your plan?
    Ms. Barcomb. I believe in the last few years the BLM has 
initiated what was called the Pearson report and the Culp 
report. Those were their own investigations into the program. I 
think we are using a lot of their work that they have already 
done, instead of trying to recreate the wheel. We have looked 
at what they have taken in testimonies and then we have gone 
throughout Nevada and like I said, in forums, we have invited 
the public to come in and write the plan with us. I believe 
representatives of your organization and a lot of people that 
are in this room helped us write the plan and I think it is a 
good compilation from Nevada.
    Mr. Gibbons. Thank you.
    And Mr. Chairman, if I may, one final comment here. I have 
heard a lot of comments from people referring to wild horses as 
the symbol of the pioneer spirit of the west. Yes, they are a 
symbol of that spirit. But I would also like to say that so are 
ranchers like Mr. Dahl sitting here before us. And I think if 
we can take care of our horses, we should be able to take care 
of our ranchers in the same spirit. They deserve protection as 
well.
    And I want to thank you, Mr. Chairman, for bringing this 
hearing to Reno, it has been a very enlightening and a very 
important hearing. It also has allowed the public from Nevada 
rather than having to go all the way to Washington, DC to 
submit their concerns or to submit their solutions, to have a 
venue, you have provided that and I want to thank you for your 
leadership again on holding this hearing.
    Mr. Hansen. Well, thank you, Mr. Gibbons. And of course, 
Jim Gibbons is the reason we are here, he asked us to come on a 
problem that he could see and now I think we see this all over 
America and especially in the west. Like many of you folks, I 
have a soft spot in my heart for horses, I grew up with horses 
and I think every ache and pain I have got in my body now is a 
result of a horse, but anyway, you do love those animals, but I 
think we do have a real problem here. And I think it is the 
intent of this Committee to move ahead with something. I intend 
to work with the Departments of Interior and Agriculture and I 
hope to work with my colleagues on the Committee because I feel 
we have a substantial problem that is out of control.
    I think if I have learned anything here--and no disrespect 
to any entity of the government--but if we are going to treat 
private citizens a certain way--I know when they have a problem 
on AUMs or overgrazing, it does not take long for the 
Department of Interior or the Department of Agriculture to be 
talking to them--if we are going to play it right with those 
folks, we are going to play it right with the other side. I 
mean if we are going to have an overgrazing of horses, then I 
think we have got to do something about that.
    There is no easy solution to anything we get involved in. 
Congress is not a place of easy solutions, believe me. We argue 
over the most mundane--you think something would be simple. I 
re-

member once we were going to give a gold medal to Queen 
Beatrice of the Netherlands, and we argued over that. It would 
seem we could have just given it to her. We argued over giving 
Louis L'Amour a medal of some kind prior to him passing on. So 
this will be kind of difficult but I commend my colleague from 
Nevada and the members of the Committee for being here and I 
want to thank this panel, and we will digest all of your 
information and we would hope that we would have the right to 
ask additional questions from all of the panelists who have 
been before this Committee.
    Thank you so much and this Committee stands adjourned.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
Statement of Bob Abbey, State Director, Nevada State Office, Bureau of 
                            Land Management

    Mr. Chairman and Members of the Subcommittee, I appreciate 
the opportunity to participate in this hearing on resource 
issues associated with implementation of the Wild and Free 
Roaming Horse and Burro Act (Act). Over the past two years, the 
BLM's management of the wild horse and burro program has come 
under intense scrutiny, prompting multiple reviews of all 
facets of the program.
    Acting upon the results of those reviews, BLM Director Pat 
Shea has instituted a number of improvements in the management 
and operation of the wild horse and burro program that I will 
describe to you today. These improvements will help us meet the 
long-term objectives for the program including: perpetuating 
and protecting viable wild horse and burro populations and 
their habitat in accordance with the principles of multiple-use 
management; ensuring humane care and treatment of excess wild 
horses and burros; establishing and maintaining partnerships 
and cooperative relationships to benefit wild horses and 
burros; integrating and incorporating research, science, and 
technical development into the overall wild horse and burro 
program; and increasing and maintaining professional 
capability, leadership, and service to the public concerning 
wild horse and burro management.
    In the Act, Congress directed the BLM to ``. . . manage 
wild free-roaming horses and burros in a manner that is 
designed to achieve and maintain a thriving natural ecological 
balance on the public lands.'' Under Federal protection, wild 
horse herds have flourished, and these animals are in no danger 
of extinction. In 1971, it was estimated that between 10,000 
and 17,000 wild horses and burros roamed the West. Today there 
are about 43,000 wild horses and burros on the public lands, 
including some 22,000 in Nevada.
    Competition for water and forage on the public lands 
between wild horses and burros, other wildlife species, and 
domestic livestock is inevitable in areas where they graze the 
open range together. Rangeland condition improves when the 
number of animals is appropriate to range conditions and 
carrying capacity. Establishing and maintaining appropriate 
management levels (AML) is essential to preserve a thriving 
natural ecological balance while protecting, managing and 
controlling wild horses and burros on the public land.
    In Nevada, the BLM manages 99 Herd Management Areas 
encompassing over 16,000,000 acres of public land and involving 
113 grazing allotments. We establish AMLs through our Multiple 
Use Decision process which involves interdisciplinary 
monitoring of resources and evaluations to determine if 
multiple use and rangeland standard objectives are being met. 
The results of the assessment are then used to set the terms 
and conditions for livestock permits, including livestock 
carrying capacities, the AML for wild horses and burros, and 
develop recommendations regarding wildlife populations.
    At the end of fiscal year 1997, AMLs had been established 
on over half of Nevada's herd management areas (HMA) and our 
goal is to have those numbers established on all HMAs by fiscal 
year 2000. We have been removing excess animals at a rate 
allowed by funding and facility space, and have achieved the 
AMLs in many areas where AML numbers have been established.
    In herd management areas where we have achieved and are 
maintaining AML and working cooperatively with the permitters 
to develop better livestock management practices, we have seen 
a steady improvement in rangeland conditions. These 
improvements are fostered by healthier vegetative communities 
derived from increased forage production and decreased 
utilization. The result is an ecological balance providing for 
recovering riparian areas, improved wildlife habitat and 
achievement of the Bureau's multiple use mandate. In addition, 
it results in healthy, viable populations of wild horses and 
burros on the public lands, which the public demands and the 
Wild Horse and Burro Act requires. We have shown that wild 
horses and burros can be managed within a thriving ecological 
balance with other rangeland uses when their populations are 
maintained within AML.
    The BLM has focused its efforts on reaching AML by 
addressing population increases in wild horse herds through 
gathering excess animals, removing them from the rangelands, 
and placing them with qualified adopters. Although the Act 
permits

the humane destruction of animals\1\, Congress has prohibited 
the destruction of excess healthy animals since 1988.\2\ The 
Adopt-A-Horse-and-Burro Program is, therefore, the only tool 
the BLM currently possesses to manage the excess wild horses 
and burros removed from the range. Most of our recent efforts 
have focused on improving the adoption program and allowing us 
to achieve AML.
---------------------------------------------------------------------------
    \1\ The Act authorizes the BLM to take the following actions to 
``remove excess animals from the range so as to achieve AML:

      ``(A) old, sick or lame animals to be destroyed in the most 
humane manner possible;
      ``(B) removed for private maintenance and care for which an 
adoption demand exists by qualified individuals; and
      ``(C) additional excess wild free-roaming wild horses and burros 
for which an adoption demand by qualified individuals does not exist to 
be destroyed in the most humane and cost efficient manner possible.''
    \2\ ``Provided, that appropriations herein made shall not be 
available for the destruction of healthy, unadopted, wild horses and 
burros in the care of the Bureau or its contractors.'' [Department of 
the Interior and Related Agencies Appropriations Act]
---------------------------------------------------------------------------
    In fiscal year 1997 and the first part of fiscal year 1998, 
adoption demand declined. Possible causes for the decline 
include negative news articles, increased adoption fees, 
increased compliance checks, initial reaction to the new 
competitive bid process, and the higher costs of feed in 
winter. The past month has seen a renewal of public interest 
with adoptions returning to normal levels. Of the 10,443 horses 
and burros gathered in fiscal year 1997, a total of 6,993 
horses and 1,699 burros (total of 8,692) were adopted. We are 
moving animals out of our holding facilities more slowly than 
planned and we are holding animals longer than expected.
    As of June 1 in fiscal year 1998, we have gathered 3,861 
animals, and 5,023 horses and burros have been adopted. As of 
June 1, we had 3,889 animals in our holding facilities. Lacking 
the ability to adopt out a larger number of animals, we expect 
that numbers of animals in our facilities will remain higher 
than is normal for this time of year. We are reviewing our 
gather schedule to ensure that we can balance the room we have 
in our holding facilities with the number of animals proposed 
to be gathered and with anticipated adoptions.
    As adoption demand was declining in fiscal year 1997, the 
wild horse and burro herds were reproducing at a rate of about 
24 percent--a rate at which a herd will double in size in three 
years. We expect about 9,000 foals will be born this year. To 
improve management of this situation, the BLM has undertaken 
the following actions:
    Re-establishment of the Wild Horse and Burro Advisory 
Board: Director Shea rechartered the National Advisory Board in 
January 1998 to advise the Departments of the Interior and 
Agriculture on the management and protection of wild horses and 
burros on the public lands. Nominations for the nine-member 
Board were solicited from the research community, advocacy 
groups, humane organizations, natural resource and wildlife 
management groups, and the public at large. To date, the Board 
has held three public meetings: February 9, 1998, in Reno, 
Nevada, April 24, 1998, in Arlington, Virginia, and last week 
(July 9) in St. Louis, Missouri.
    Following these meetings, the Board established working 
groups to focus on four key areas of concern: (1) horses on the 
range; (2) horses off the range; (3) science; and (4) burros. 
These groups have just begun their work; we expect the groups 
to present solid recommendations to the Director after they 
have reached consensus on specific issues. The Director has 
reaffirmed his pledge that the BLM will listen to the Board and 
seriously evaluate its recommendations.
    In a break with past practice, the BLM will not postpone 
acting on Board recommendations until after the Advisory Board 
has completed its work and issued a report. Director Shea has 
committed the BLM to consider this Board's recommendations as 
soon as they are made, and decide on them as soon as possible. 
For example, at the April 24th Advisory Board meeting in 
Arlington, Virginia, the Board recommended that BLM adopt a 
revised policy on humane destruction of animals, proceed with a 
pilot program training wild horses, examine the structure of 
the leadership of the program, and proceed with a marketing 
study to look at new ways to increase our adoptions. We are 
implementing each of these recommendations.
    Fertility Control/Research: the BLM is supporting research 
aimed at controlling the reproduction rate of wild horses wile 
maintaining the integrity of the herd. A pilot study of immuno-
contraceptive vaccine that prevents pregnancy in mares was 
implemented in northeast Nevada in December 1992. The results 
of this pilot study to date have shown immuno-contraception 
could be a viable, economically feasible, and humane tool for 
reducing wild horse reproduction.
    Researchers now have developed a single-injection vaccine 
that does not require a booster shot and will last for 
approximately one year. A second pilot project with a 
redesigned vaccine potentially lasting for more than one year 
was initiated on the Nevada Wild Horse Range/Nellis Bombing and 
Gunnery Range in January 1996. The results of the immuno-
contraceptive test from the Nevada Wild Horse Range animals 
have been favorable.
    Field application of the single-injection, 1-year vaccine 
is continuing with new field trials begun in Nevada in January 
and February 1998. The one-shot application of the immuno-
contraceptive vaccine has been shown to be effective on almost 
100 percent of the mares treated. Application of the vaccine 
will be expanded and additional herds will be treated in 
subsequent years. The two-shot protocol was 100 percent 
effective, but required a 30-day holding period between the 
initial injection and the booster, making it impractical for 
wild horses and burros. Research continues on a multi-year time 
release vaccine.
    About $200,000 is planned for wild horse and burro immuno-
contraception research in fiscal year 1999. This research is 
funded through the Biological Research Division of the U.S. 
Geological Survey.
    The population model developed for wild horses and burros 
by the University of Nevada at Reno continues to be refined. A 
study on the impacts of the selective removal policy on herd 
health and viability was initiated in 1997 and will be 
incorporated into the model.
    Enhanced Adoption Efforts: the BLM has undertaken a number 
of initiatives geared to increase adoption demand and ensure 
the humane treatment of animals placed with qualified adopters.

        <bullet> Competitive bids--The BLM changed its regulations on 
        March 8, 1997, to allow the BLM to offer wild horses and burros 
        for adoption using the competitive bid process authorized by 
        Congress. This is to provide consistency to the customer and 
        alleviate some of the internal concerns about changes in 
        adoption procedures. Several BLM Field Offices have tested the 
        competitive bid process and found most potential adopters 
        receptive to this approach.
        <bullet> Western states adoption--In December 1997, BLM's 
        Washington Office asked the BLM State Offices to add more 
        adoptions to their existing schedule. The 6 Western States 
        which administer Wild Horse and Burro Programs have added an 
        additional 10 adoption events (both at holding facilities and 
        satellite adoptions) to bring the adoption goal for the 6 
        Western States up to 2,430 animals for fiscal year 1998 from 
        2,296 in fiscal year 1997.
        <bullet> Nevada does not have a large adoption demand, but we 
        have participated in this effort by increasing our planned 
        adoption events from three to four. On May 23, we conducted an 
        adoption event in Elko where we placed 26 animals with 
        qualified adopters and on May 30, an event was held in 
        Winnemucca where 23 animals were adopted. At the June 13-14 
        adoption, held in conjunction with the National Wild Horse and 
        Burro Show in Reno, 13 animals were adopted. The horse that 
        trainer Brian Newbert worked with brought $425 in the 
        competitive bidding. More importantly, BLM-Nevada committed to 
        provide assistance to other state offices to help accomplish 
        their goals. We have sent BLM-Nevada employees to other states 
        on six occasions to help meet the commitments of adopting 
        larger numbers of animals.Internet--The BLM is doing a pilot 
        project using the Internet to increase public awareness of the 
        adoption program. The first Internet Wild Horse and Burro 
        Adoption was announced on April 15, 1998; the web site is: 
        http://www.adoptahorse.blm.gov/. The public can view on the 
        Internet photos and brief descriptions of the 25 animals up for 
        adoption. Electronic applications were accepted from May 8-22. 
        Fifty-three (53) applications were submitted, and 18 were 
        approved to participate in the bidding. Since this was a pilot 
        in test mode, BLM employees could not participate in bidding or 
        adoptions at this time. The bidding for adoption privileges 
        took place from May 15-29. Fifteen (15) animals were adopted.
        <bullet> Pre-adoption horse training--The BLM is also studying 
        the idea of working with wild horses to gentle them before 
        putting them up for adoption, with the goal of making the 
        horses more attractive to prospective qualified adopters.
    Other Actions to Improve Management of the Program: BLM Director 
Shea also appointed a fact-finder team, composed of professionals from 
the private sector, to report on three issues relating to BLM 
practices:

        <bullet> the media--The report's findings included the need for 
        media training for employees involved with the Wild Horse and 
        Burro Program.
        <bullet> accounting methods--The report recommended measures 
        for improved tracking of excess animals gathered from public 
        land to issuance of title for the animal to an adopter.
        <bullet> the horse perspective--The report recognized the 
        biological, ethical and ecological considerations of wild horse 
        management.
    The BLM has implemented three recommendations from these reports 
respectively; including media training in wild horse and burro training 
courses; verifying data in the wild horse and burro information system; 
and, initiating development of a policy on humane destruction of 
unhealthy animals.
    In conclusion, the BLM is making every effort to maximize 
adoptions, including a concerted effort to identify new markets and to 
enhance adoptability through gentling the animal prior to adoption as 
we continue striving to reach AML. We are moving ahead with research on 
fertility control through the use of contraception. We look forward to 
receiving the recommendations of the National Wild Hose and Burro 
Advisory Board.
    Mr. Chairman, I welcome the Subcommittee's continued interest in 
the BLM's management of the wild hose and burro program, and I 
appreciate this opportunity to discuss the direction we are taking in 
the program. I will be glad to respond to any questions you may have.
[GRAPHIC] [TIFF OMITTED] T0579.001

[GRAPHIC] [TIFF OMITTED] T0579.002

[GRAPHIC] [TIFF OMITTED] T0579.003

[GRAPHIC] [TIFF OMITTED] T0579.004

[GRAPHIC] [TIFF OMITTED] T0579.005

[GRAPHIC] [TIFF OMITTED] T0579.006

[GRAPHIC] [TIFF OMITTED] T0579.007

[GRAPHIC] [TIFF OMITTED] T0579.008

[GRAPHIC] [TIFF OMITTED] T0579.009

  Statement of John Balliette, Contractual Natural Resource Manager, 
                         Eureka County, Nevada

    Chairman and Members of the Committee:
    Thank you for the invitation to testify before your 
Committee on an issue that is very important to rural Nevada. 
My testimony will include a summary of my background and 
qualifications, an overview of some major problems we have 
encountered and some suggestions on how the wild horse and 
burro program can be improved.
    My education in natural resource management includes a 
bachelors degree from the University of Nevada-Reno and a 
masters degree from New Mexico State University. I have worked 
on ranches and for both the Bureau of Land Management (BLM) and 
the U.S. Forest Service. I also spent 10 years working for the 
University of Nevada-Reno as an agricultural extension agent. 
For the last three years, I have represented Eureka County, 
Nevada as a contractual natural resource manager on a wide 
range of issues including wild horses.
    Problems in the wild horse program do have an affect on 
rural communities. An increasing horse population, in 
combination with other factors, have resulted in significant 
reductions in livestock AUM's (Attachment 1). Recent AUM 
suspensions, that are partially attributable to increased horse 
numbers, represent a loss of about 20 percent of the permitted 
livestock use in Eureka County. Similarly, cattle numbers have 
fallen in Eureka County from 41,000 in 1982 to 15,000 in 1997 
(Nevada Agricultural Statistics Bulletins, USDA National 
Agricultural Statistics Service). These losses are felt not 
only in the agricultural industry but also by local 
governments. The long term sustainable economic sector and tax 
base in Eureka County has traditionally been agriculture.
    Several problems in the horse program in Nevada have a lot 
to do with accountability. In the winter of 1993-94, Railroad 
Pass in Central Nevada experienced a significant horse kill. A 
deep snow followed by a lengthy cold period resulted in 
starving horses.
    Similarly, there was a major die-off of horses on the 
Nellis Range several years ago after a prolonged drought. In 
both cases, I will argue that the magnitude of these disasters 
could have been lessened if horse numbers were at an 
appropriate level in relation to the range resource. 
Furthermore, if those horses were in private hands, the owners 
would likely have faced serious charges. I am not suggesting 
that serious charges should be brought against agency employees 
but I feel strongly that such instances should be thoroughly 
reviewed and individuals who are in some way responsible, 
should at a minimum, be assigned to activities for which they 
are better qualified.
    Another area where accountability is lacking is in the 
Multiple Use Decision (MUD) process. A MUD is typically the 
document that sets appropriate management level (AML) for 
horses, stocking rates for livestock and a forage allocation 
for wildlife. Often a MUD will also prescribe changes in 
management for livestock such as season of use or 
implementation of a grazing system. Livestock producers are 
expected to comply immediately with a MUD and can face 
consequences such as trespass or livestock impoundment for non-
compliance. Unfortunately when it comes to mustangs, we have 
witnessed a trend in which BLM apparently does not feel 
compelled to comply with their own decisions. Because, 
livestock producers can not use excuses for failing to comply 
with MUDs, we as citizens are held to higher level of 
accountability to BLM decisions than the agency itself.
    The Fish Creek grazing allotment and the Fish Creek Herd 
Management Area (HMA) is an example of BLM failing to comply 
with their own decisions. In 1994, BLM reduced the number of 
livestock by 75 percent on the Fish Creek Allotment and an AML 
of 75 horses was established for that portion of Fish Creek HMA 
that lies within Fish Creek Allotment (62 percent of Fish Creek 
HMA lies within the Fish Creek grazing allotment). Despite two 
horse gathers over the past several years, a March 1998 census 
by BLM showed 263 horses were in the Fish Creek Allotment. This 
is much higher than the 75 head called for in the MUD. We have 
heard excuses from the BLM such as not enough time, money or 
manpower as well as a lack of space in adoption facilities as 
reasons for not reaching AML. These reasons are not acceptable 
and I believe the agency must reconsider it's priorities. I 
also believe removing perennial language from Interior 
Appropriations language that restricts the Secretary from 
selling surplus horse should also be considered.
    The second problem area with the horse program is when BLM 
fails to comply with the criteria of a MUD, the result can be 
very detrimental to the resource base. In the Fish Creek 
Allotment, failure to bring horses to AML has resulted in 
continued heavy to severe grazing of white sage (a very 
palatable shrub). This over utilization is due solely to horses 
because no livestock have used the allotment for over three 
years. Similarly, horses in Railroad Pass consistently over 
utilized a revegetated area to such an extent that ranchers 
could not use the allotment. Also, at last count, there are 
over 400 head of horses above AML in the Grass Valley Allotment 
which contributes to overgrazing. Again, the over grazing in 
these three allotments can be directly attributed to BLM's 
failure to maintain horses at AML. I have lengthy documentation 
of over utilization by horses on both the Fish Creek and 
Railroad Pass Allotments and will duplicate this documentation 
for your Subcommittee at your request. The point I am trying to 
make is that BLM has issued MUD's on numerous allotments that 
have resulted in livestock reductions, more intensive 
management, losses of personal income and a loss of tax base. 
These MUD's have also called for the reduction of horses yet 
BLM has not complied with this requirement. When BLM fails to 
bring horse numbers to AML, these impacts are compounded by the 
continued degradation of the resource base.
    Excessive numbers are also challenging the viability of the 
present horse herds. BLM has a policy of only removing animals 
under nine years of age. As a result, herds that have been 
gathered several times consist of the very old and the very 
young. Along with increased age, many herds are dominated by 
studs, because older studs are not as adoptable as older mares. 
Biologically, a healthy population consists of evenly 
distributed age classes and severe events (drought, cold, 
hunger etc.) have a more severe impact on the youngest and 
oldest age classes. We may be setting the stage for disaster, 
given the present composition of horse herds.
    The first solution that must be implemented is decisions 
regarding horses must be made on the basis of sound range 
management and the needs of other multiple uses. Presently, 
decisions regarding the horse program appear to be based on the 
adoption system. Because the adoption system can not handle the 
present excess, especially the old and undesirable, the outlet 
for excess animals must be expanded.
    The current tools for controlling horse populations are 
limited to the adoption program and fertility control. The 
adoption program was backed up with 5,000-6,000 head of horses 
earlier this year. Also at present, the national horse 
population exceeds AML by over 15,000 head (1996 BLM estimates, 
National Wild Horse and Burro Program). If Congress expanded 
funding to gather all excess horses, the existing adoption 
program would likely be inadequate.
    Many of us view the fertility control program with 
skepticism, especially for HMA's that greatly exceed AML. 
Fertility control, to me, seems best suited for populations at 
or near AML. Using Fish Creek as an example once more, BLM 
recognized in their Environmental Assessment for fertility 
control (EA# NV-062-EA98-005) that ``. . ., it can be projected 
that AML can be achieved in 9 to 13 years with the 
implementation of fertility control.'' This strongly indicates 
that large reductions in a horse population will take a 
significant length of time using fertility control. I contend 
the length of time required to reduce population with fertility 
control may actually prove detrimental to the range resource 
base as I can document in the Fish Creek and Railroad Pass 
Allotments.
    At any rate, the current tools for dealing with excess 
horses are inadequate. There are several ways to expand the 
outlet for excess horses. Perhaps the most controversial and 
effective is sale authority. However, sale authority must be 
debated.
    Some real double standards exist when it comes to sale 
authority. Each year our country sells thousands of privately 
owned horses for slaughter. But the mere mention of sale 
authority of ``wild'' horses with the possibility of slaughter 
is offensive to some. Horses are the only large ungulate on 
Federal lands that are not harvested for consumptive purposes. 
If harvesting one large ungulate is acceptable, why is 
harvesting horses unacceptable? Horses must be viewed as are 
other large ungulates on Federal lands, a renewable resource 
that can be effectively managed by harvesting excess numbers.
    Perhaps a more acceptable solution would be limited sale 
authority. The model I envision would allow sale authority for 
herd management areas that greatly exceed carrying capacity or 
AML. Rather than removing only young adoptable animals and 
leaving only old unadoptable animals, remaining herds should 
consist of evenly distributed age classes. By using sale 
authority, BLM could base management and actual horse numbers 
on the health and viability of the range resource and the 
health and viability of the horse herds rather than basing such 
decisions on the adoption program. Once AML is reached, sale 
authority would then be sunsetted and politically correct 
methods of population control such as adoption and fertility 
control may have a better success rate.
    I also urge you to be cautious with euthanasia, especially 
for large reductions. Personally, I would view putting 
thousands of horses down as a terrible waste of a resource. I 
also believe the first time several hundred horses are 
euthanized in one spot, a political firestorm will follow.
    Also as a solution, I would recommend that cooperative 
agreements with non-Federal entities as an alternative to 
federally operated adoption programs. There are numerous groups 
that claim to have an interest in the well being of horses. 
Since the inception of the horse program, our government has 
spent over $240 million for the benefit of a small number of 
horse advocates. Turning over the adoption program to horse 
advocacy groups would not only put the responsibility of the 
care of horses in the hands of the people who claim that 
interest, but, I also believe these folks could do a more 
efficient job. In my experience, working for the bureaucracies 
does not reward innovation. However, dealing with the present 
excess of horses will require innovation not bureaucratic 
restraints. I believe horse advocacy groups have greatly 
benefited and it is now time for them to invest time and money 
to help solve a problem.
    Finally, I would like to say a few words about the National 
Wild Horse and Burro Advisory Board. I know several folks on 
that Board and do not wish to discredit their efforts. However, 
giving this Board two years to make recommendations seems a 
little excessive. Especially when it will take BLM another year 
or more to take action based on the Board's recommendations. 
Simply put, the problem with the horse program is excess 
numbers and the solution to this problem is controlling 
population growth. I would recommend that your Committee seek 
legislation which would require the Board to submit findings to 
Congress no later than January 15, 1999. Language in the 
Interior Appropriations Conference Committee report might 
accomplish this.
    In summary, wild horses are capable of damaging the range 
resource and this is occurring as I speak. Decisions issued by 
BLM are often not followed by BLM and as a result, damage to 
the rangelands has and will occur as a result of their non 
compliance. The present methods of adoption and fertility 
control are not capable of controlling excess horse numbers. 
New outlets for excess animals are needed and include limited 
sale authority and allowing private participation in operating 
the adoption program.
    Thank you again for the opportunity to testify.
    [GRAPHIC] [TIFF OMITTED] T0579.010
    
    [GRAPHIC] [TIFF OMITTED] T0579.011
    
          Statement of Demar Dahl, Starr Valley, Death, Nevada

    My name is Demar Dahl and I have been a cattle rancher in 
Nevada since 1969. Most of that time was spent on ranches where 
there were mustangs on my range.
    With the passing of the Wild Horse Act in 1971, I could see 
the potential for problems caused by competition between horses 
and livestock. To establish what the numbers of horses on my 
range were I appealed a decision of the Battle Mountain 
District Manager concerning domestic horse permits. With 
documentation acquired at that appeal hearing, I was able to 
establish that there were only thirty-one head of wild horses 
on my ranch at the time the Wild Horse Act was passed.
    In the early 80's I filed suite in Federal District Court, 
asking the court to require the BLM to remove enough horses 
from my range so as to return horse numbers to the 1971 level. 
Our reasoning in the suite was that, even though the Act did 
not specify that horse numbers had to stay the same as in 1971, 
it dictated that horses were not to be in areas they did not 
occupy in 1971. We reasoned with the Federal District Judge 
that the only way to keep horses only in areas they did occupy 
in 1971, since the Act also prohibited fencing to control horse 
movement, was to keep the horse numbers at what they were in 
1971. We established for the court, that where on my range 
there were 31 head of horses in 1971, about ten years later, at 
the time of the trail, there were in excess of seven hundred. 
Part of the increase was of course from procreation and part 
from horses moving into the area from adjacent ranges. For me 
that was a very expensive case and I lost it on a technicality.
    I had to sell that ranch at a considerable loss because I 
could not survive with the horses almost outnumbering my 
cattle.
    Later in 1980's I had the Big Springs Ranch in Elko County 
which had many wild horses but also much deeded land. The wild 
horses ran on both the BLM and private land and I had requested 
that BLM remove the wild horses from the private land. On one 
occasion we had gathered cattle from a large piece of county in 
order to be off by the time the BLM permit dictated but we had 
to turn five cows back to find their calves that had gotten 
lost in the gather. The next day a BLM employee spotted the 
cows which were looking for their calves and sent me a trespass 
notice. The notice said in part, ``You are hereby notified that 
the Bureau of Land Management has made an investigation and 
evidence tends to show that you are making unauthorized use of 
the public lands. We allege that you are violating the law(s) 
specified below . . .'' ``Failure to comply with this notice 
will result in further action to protect the interest of the 
United States.''
    I was struck by the irony that I was being held accountable 
to the law governing trespass while the BLM, in spite of my 
requests, refused to remove the wild horses from my deeded 
land. The Wild Horse Act requires the BLM to remove wild horses 
from private property when retested to do so by the land owner.
    My response was to send the BLM a trespass notice, quoting 
the law that required them to remove the horses upon my 
request. I also sent them a bill using their trespass rates of 
$8.49 per AUM and then after a five day period raised the 
charge to equal the BLM intentional trespass fee which is 
considerably higher. I received a weak response from the 
district manager which in effect said, ``I'm sorry but I can't 
do anything about the horses.'' If I had responded to the BLM 
trespass notice in that way, I would have received a notice 
telling me of my sin against the United States, and I would 
have been fined and my cattle impounded. I have kept track of 
the BLM's trespass over the years and the many thousands of 
dollars it would cost them if required to pay. If you would 
like to see this documentation, which includes trespass notices 
and fee calculation, etc., please contact me.
    It has been heartbreaking over the years to see so much 
damage done to the range by an over population of wild horses.
    I have taken pride in my range and always used grazing 
techniques that maximize the health of the range. To remove 
cattle from a piece of county so as to let it rest but watch as 
many horses stay as there are cattle removed is hard to take. 
Horses usually stay in the same area year round and often tromp 
in the springs and decimate new spring growth.
    It was many years before anyone in Congress was courageous 
enough to speak out about the parts of the Endangered Species 
Act that just did not make sense. The fact that the Endangered 
Species Act is no longer considered a sacred document that can 
not be changed gives me hope that we may soon apply some common 
sense to the Wild Horse Act.
                                ------                                


  Statement of Cathy Barcomb, Executive Director, Commission for the 
                      Preservation of Wild Horses

    Mr. Chairman and members of this Committee . . . welcome to 
Nevada and thank you for the opportunity to address you today. 
My name is Cathy Barcomb, I am the Administrator of the State 
of Nevada Commission for the Preservation of Wild Horses. My 
purpose today is to make this introduction and to give you some 
idea of what our Commission is doing on a State level.
    Our Commission is made up of members much like yours in 
that we have representatives of horse organizations, 
veterinarian, a humane society representative, a rancher, and 
even an attorney.
    The Nevada Commission was established by the 1985 Nevada 
Legislature. Our mission statement from the legislature is to 
prepare a plan for the management of the wild horses in Nevada. 
This will be a year long project, and our final plan will be 
completed at the end of this calendar year and then presented 
to the next session of the Nevada legislature.
    We are presently conducting a number of scoping sessions 
throughout Nevada. We are traveling to every part of this state 
taking testimony and discussing issues and problems with the 
people affected in those areas. When our scoping sessions are 
complete we will have field hearings in every part of this 
state, from Las Vegas to Elko and everywhere in between.
    As you can imagine, the testimony we received was mostly 
from the people in the field . . . from the people that most 
deal with wild horse issues on a daily basis. This includes not 
only the ranchers, environmentalists, local representatives, 
but also the local BLM personnel as well.
    Let me add that the BLM personnel that have been with us in 
the various locations have been extremely cooperative, and more 
importantly, have provided vital information. We fully plan on 
continuing to work with the BLM personnel and involving them at 
every stage of the process as this as this Nevada plan comes 
together.
    As I stated, my appearance was intended only as an 
introduction as to what we are doing on a state level, but let 
me leave you with a few thoughts:
    Whatever comes of our work, and your work as well, the 
final acid test, in my view is whether it works in the field. 
An effective wild horse management plan must meet the 
objectives of:

          (1) First, the horses themselves, to that end that we have a 
        healthy herd of horses, and able to stay in balance with their 
        habitat,
          (2) Second, the plan must remember the interests of those 
        directly affected by the horses, such as those seeking to 
        preserve the horses in their environment or seeking adoption, 
        but not forgetting the multiple uses of the range.
          (3) and finally, the plan must work for those in the field 
        who are on the front lines charged with the responsibility for 
        managing the program, it must work for all.
    The only conclusion I have come to, speaking as only one 
representative, but a view shared by others, is that an 
effective program will require more cooperation between the 
states, the affected interests, and the Federal Government. Our 
Commission will be addressing this issue of state and Federal 
cooperation, and hopefully coming up with ideas on how the 
states can contribute in constructive ways to assist in wild 
horse management.
    Along those lines, we will be utilizing all the information 
that comes out of your deliberations, and we hope you will be 
taking into consideration some of our views once they are 
adopted. We anticipate the draft plan being distributed to the 
public the first week of August and the final being presented 
by December for presentation to the next session of the Nevada 
Legislature.
    Thank you for this opportunity to address you today.
                                ------                                


    Statement of Larry L. Schutte, Big Springs Ranch, Wells, Nevada

    I am the current lessee, permittee of Big Springs Ranch 
located in northeastern Nevada, between Wells and Wendover, 
Nevada.
    The Big Springs winter range is the Shafter Pasture 
situated on the west side of the Goshute Mountains. In the 
1930's and 40's, the UTAH Construction Company used the ranges 
from Idaho, south to Pioche, for cattle and horses, however, 
the world war demanded both horses and men, causing the UC to 
sell off portions of the ranch. Only certain types of horses 
were accepted for army use and the balance of mares, colts and 
cull horses were left turned out due to poor prices.
    The 1972 Wild Horse Act allowed for a claiming period where 
permitters could gather and personally claim the horses within 
their own allotment. The Big Springs Ranch, managed by Howard 
Robinson in 1978, gathered the Goshute county, missing 28 head. 
The BLM was to take census at that time, however they were 
delinquent for 6 months. This allowed horses from Antelope 
Valley, from the south, to move north and inhabit the Goshute 
Valley. The BLM census was 160 head which in turn established 
an approximate allotment management level (AML) for the Goshute 
Herd Area.
    The BLM standards for census taking in a county full of 
canyons, pinion and mountains has been, to me, both a humorous 
experience and a low blow. My personal counts of horses made by 
living in the country, by vehicle and horseback are continually 
higher than the BLM census. Horses should be counted at a 
slower pace and encompass four times the area than prescribed 
by BLM standards. Different management should include people 
with common sense and hands on experience or be returned to the 
rancher.
    My winter range is used between November 1 and April 1. We 
move the cattle off the winter range before April so that the 
feed can grow all during the growing season and be available 
for the next winter. Good management dictates that all 
livestock be removed from this winter range during the primary 
growing season. The cattle are removed but of course the horses 
stay. The BLM census claims approximately 69 horses in the 
area. There are actually over 300 head and this is a number 
that is easily proved. The forage these three hundred horses 
consume is paid for by me as there has never been forage 
allocated for the horses which were considered trespass animals 
when the forage adjudication was made. More importantly, it is 
forage I depend on having for my livestock for the following 
winter that is not there because the horses have eaten it 
during the summer.
                                ------                                


Statement of Jon Fugate, Chairman, Legislative Affairs, Yuma Valley Rod 
                    & Gun Club, Inc., Yuma, Arizona

Dear Chairman Hansen,
    My name is Jon Fugate. I am chairman of the Legislative 
Affairs Committee of the Yuma Valley Rod and Gun Club (YVRGC). 
We appreciate the opportunity to provide written comment to 
range issues and problems with the Wild Free-Roaming Horses and 
Burros Act of 1971 (As amended; Act).
    Although our written testimony is addressed to Director Pat 
Shea of the Bureau of Land Management you will see that we have 
been and are continuing to be very involved with trying to 
resolve adverse impacts caused by over populations of feral 
burros in Arizona. If BLM had merely controlled populations of 
burros in Arizona that were achieved prior to the IBLA decision 
(1989) and managed those populations to date, this oversight 
hearing would not be necessary.
    If those reduced burro populations achieved by 1989, would 
have been maintained to date, BLM would not be faced with non-
compliance of the Act, overpopulation, habitat destruction, 
degradation of riparian areas, competition with livestock or 
feral burros competing with wildlife as they are today. Now in 
Arizona, the main issue at hand is BLM not being allocated 
adequate funding for removal of excess burros to fulfill their 
responsibility to maintain a thriving natural ecological 
balance between wildlife, burros, and livestock as mandated by 
the Act.
    Thank you in advance for your immediate attention to this 
matter.

 Letter to Mr. Pat Shea, Director, BLM from the Yuma Valley Rod & Gun 
                               Club, Inc.

Dear Director Shea,
    On behalf of the Yuma Valley Rod and Gun Club (YVRGC), I 
would like to take this opportunity to thank you for being 
sincere and honest about dilemmas BLM is facing in regard to 
responsibilities for the management of wild horses and burros 
on public lands. I refer to an article in the Arizona Republic 
newspaper where you were quoted as saying ``The people I have 
met in the program are very, very dedicated public servants'' . 
.  ``But faced with an impossible job they have shown a 
tendency to cover up their mistakes and problems rather than 
try to resolve them.'' In regard to burro management, it is the 
feeling of our organization, BLM in Arizona could be some of 
these dedicated public servants, who have always wanted to make 
the right decisions, but could not, simply because adequate 
funding has not been available to provide the services 
necessary to comply with the Wild Free Roaming Horses and 
Burros Act of 1971 (as amended; Horse and Burro Act).
    With regard to burro management, BLM in Arizona, working 
collaboratively with the Arizona Game and Fish Department 
(AGFD) and United States Fish and Wildlife Service (FWS), 
within the Cibola/Trigo Herd Management Area (CTHMA), have 
agreed to work towards managing for the existing appropriate 
management level (AML), which is 165 burros, consistent with 
the CTHMA plan and the Horse and Burro Act. In September of 
1997 an emergency burro removal by BLM occurred because of 
adverse impacts caused by burros. At this time, there are still 
too many burros to maintain a thriving natural ecological 
balance within the CTHMA. We further understand that BLM, 
working collaboratively with AGFD and FWS, will determine the 
process for future monitoring and gathering of data to 
substantiate the AML. It is the feeling of the YVRGC this 
approach for burro management in Arizona is correct and will 
allow for the completion of the Cibola/Trigo Comprehensive 
Wilderness Management Plan in a timely manner.
    In regard to future burro removals and adequate funding for 
necessary burro management in Arizona, the YVRGC is concerned 
that according to the national BLM program objectives and 
budget request for 1998, that little will be done in Arizona. 
BLM being responsible for reaching AML's within herd management 
areas (HMA) across our state will not be possible, because 
there is no money. Since 1989, BLM has performed poorly in 
regards to responsible burro management in Arizona, because 
responsible burro management has not been a BLM priority, most 
likely because, adequate funding was not available. If funding 
to manage burros is not adequately provided, you as Director of 
BLM can not provide, nor even think about maintaining a 
thriving natural ecological balance in Arizona as outlined in 
the Strategic Plan for Management of Wild Horses and Burros on 
Public Land (June 1992).
    One approach that the YVRGC would like to suggest that you 
might consider, is go back to Congress for additional funding, 
and direct their attention to the Horse and Burro Act and under 
section 1331 Congressional Findings and Declaration of Policy 
indicate that ``Congress found and declared that wild free 
roaming horses and burros . . . are fast disappearing from the 
American Scene.'' With this, you should advocate this is not 
the case any more, and BLM responsibility has changed from 
primarily protecting wild free roaming horses and burros, to 
trying to protect our public lands from being destroyed from 
over populations. In the case of Arizona, you should also 
advocate that burros, not horses are the primary target for 
removal.
    A second approach that the YVRGC would like to suggest, is 
that you advocate to Congress, even though the Strategic Plan 
for Management of Wild Horses and Burros on Public Land (June 
1992) indicates BLM direction to the end of the century, BLM 
has not even come close to fulfilling goals and objectives of 
the plan because of over-population. This has occurred not 
because BLM was not doing their job after 1989, but because of 
one judge, not understanding the long term effects that his 
decision, for the state of Nevada, has caused BLM in Arizona, 
to shy from their HMAP's, as they have been labeled 
``arbitrarily derived.'' I refer to page 11 of the Final Black 
Mountain Ecosystem Plan (BMEP) in Arizona (April 1996) where it 
states: ``The Black Mountain Wild Burro Herd Management Area 
(Map 4) was designated, and a herd management plan was 
completed in 1981. This plan established vegetation monitoring 
studies, and also prescribed an appropriate management level of 
400 burros. This number is no longer legally applicable because 
it was rather arbitrarily derived.'' The next sentence on page 
11 briefly explains the IBLA decision. The BMEP completed in 
April 1996 took approximately three hard long years to complete 
and the appropriate management level decided upon was 478 
burros (refer to page 33). To the YVRGC, since a plan legally 
prepared by BLM in 1981 is within 78 animals, it is our opinion 
that not only did BLM waste taxpayers dollars because of a 
decision from a judge in another state in regards to a plan 
which had nothing to do with the BMEP, your BLM employees, some 
seventeen years ago, have indicated the original plan was 
correct, and BLM and the other responsible agencies obviously 
knew what they were doing in 1981, regardless of how it was 
derived. The YVRGC has not reviewed one HMAP that did not 
identify resource damage caused by burros and a need to manage 
for a specific AML. Because few significant burro removals have 
taken place in southwestern Arizona since 1989, the resource 
damage which was documented in the early 1980's has worsened. 
With this, our organization questions why BLM is fighting so 
hard to throw out existing HMAP's in order to manage for some 
undefined natural ecological balance.
    Another approach, which would not have to be presented to 
Congress, is that you direct (already appropriated) funds for 
wilderness management and/or fire protection management to be 
moved and allocated to the management of burros. It makes 
little sense to spend taxpayers dollars for the purpose of 
these types of management, when everyday in the arid deserts of 
Arizona, burros are adversely impacting wilderness and non-
wilderness land and vegetation to a point where a rangeland 
fire would be insignificant. These adverse impacts include 
degradation of native riparian habitat important to many 
wildlife species, including the Endangered southwestern willow 
flycatcher.
    However, before the completion of the BMEP and prior to the 
decision of an initial AML for the CTHMA, BLM in Arizona chose 
to manage burros at levels many many times that of their 
respective AML's since the IBLA decision in 1989. In our 
opinion, prior to the IBLA decision of 1989, BLM in Arizona had 
reduced populations of burros in accordance to plans developed 
in the early 1980's, and had BLM continued, merely to control 
populations achieved at that time, and managed those 
populations to date, BLM would not be in the dilemma you are 
having to face today.
    BLM did not, for what ever reason, (whether it be the 
threat of another law suit or not) continue to do the right 
thing which was to follow the mandates authorized to the BLM, 
through the Horse and Burro Act. BLM in Arizona has not been 
able to provide the services necessary to maintain a thriving 
natural ecological balance between wild free roaming burros and 
wildlife resources.
    This issue is of great importance to the YVRGC and your 
immediate attention to this matter will be greatly appreciated. 
Thanks, in advance for your consideration of the comments 
provided in this letter. If you have any questions regarding 
this letter, please contact me at the following telephone 
numbers or address below.
                                ------                                


      Statement of The Humane Society of the United States (HSUS)

    On behalf of The Humane Society of the United States (HSUS) 
and our 6.2 million members and constituents, I thank you for 
the opportunity to submit a statement for the record for the 
Wild Horse and Burro Program field oversight hearing of the 
House Resources Subcommittee on National Parks and Public Lands 
on July 13, 1998, in Reno, Nevada.
    The HSUS, which is the nation's largest animal protection 
organization, has been working to promote the health and 
welfare of America's wild horse and burro herds for over three 
decades. Our goals have been threefold: to assure the existence 
of healthy wild horse and burro herds on the range; to assure 
equitable distribution of forage among wild horses, livestock 
and wildlife; and to assure humane treatment of wild horses and 
burros after their removal from the range, including the 
securing of humane lifelong care in good homes for animals 
passing through the Bureau of Land Management's (BLM) Adopt-a-
Horse program.
    In our experience, wild horses and burros exercise an 
extraordinary hold on the American imagination, and the 
sustained level of interest and concern for these animals among 
the public should not be underestimated by Congress. The 
firestorm of public outrage that greeted last year's press 
reports concerning the fate of wild horses in the BLM Adopt-a-
Horse Program did not arise in response to abstract concerns 
about poor record keeping or bureaucratic mismanagement. 
Rather, the public was furious that, in spite of the clear 
mandates of the Wild Free-Roaming Horse & Burro Act, the 
American government was allowing American wild horses to come 
to harm. The public supports wild horse protection, the public 
supports the Act, and the public wants to see the Act 
implemented.
    The BLM Wild Horse & Burro Program remains an imperfect 
tool for managing wild horses and burros on the public lands in 
a manner consistent with the mandates of the Act and the will 
of the American public. Nevertheless, the HSUS is working 
closely with the BLM to improve all aspects of the program, 
including management of rangelands, management of horses and 
burros on the range, handling of horses and burros in BLM 
facilities, and the Adopt-a-Horse program.
    These are the some of the changes in management and policy 
that we believe are most important:

          The BLM must shift emphasis and resources from the adoption 
        program to on-the-range management of horses, wildlife, and 
        livestock, with improvements in the accuracy of animal census 
        data, consistency and clarity of range monitoring data 
        collection, and increased efforts at range restoration.
          The BLM must increase responsible use of immunocontraception 
        on wild horse populations, with the goal of reducing 
        reproduction on the range to the extent necessary to preserve a 
        thriving ecological balance. Such a reduction in reproduction 
        on the range would reduce the number of gathers conducted and 
        reduce the number of horses entering the adoption program. This 
        would in turn reduce stress on horses, improve the quality of 
        adoptions, and save tax dollars.
          The BLM must end the arbitrary elimination of wild horse and 
        burro populations from herd areas, and ensure that all existing 
        wild horse and burro herds are managed to assure long-term 
        health and viability. We will actively oppose any further 
        reduction in the number of herd management areas.
          The BLM must improve the marketing of horses in the Adopt-a-
        Horse program to recruit additional qualified adopters and to 
        better match horses to adopters. In particular, we encourage 
        the BLM to continue to explore avenues for humanely gentling 
        and training horses prior to adoption; we believe such training 
        will improve the animals' attractiveness to adopters and 
        provide better quality adoption experiences for adopters and 
        horses alike.
          The BLM must screen potential adopters more rigorously, 
        improve adopters' access to information and assistance before 
        and after adoption, and increase follow-up contacts with 
        adopters from BLM personnel and volunteer mentors.
    We adamantly oppose any change in the law that would provide the 
BLM with sale authority for the wild horses and burros removed from the 
range. Inevitably, most of these animals would go to slaughter. Neither 
the HSUS nor, thirty years of experience tell us, the American public 
will tolerate such cruelty.
    We also adamantly oppose turning over the management of wild horses 
or burros on public lands to ranchers or other private interests. Wild 
horses are not livestock, and their wild-free roaming character will be 
lost if they are managed as such.
    The HSUS believes that wild horses, burros, wildlife, and livestock 
can be maintained on public lands in a thriving ecological balance, as 
the Act mandates. We also believe that, at the present time, the BLM is 
moving in the right direction. The HSUS is committed to keeping the 
agency moving in that direction, and to assuring that wild horses and 
burros, these ``living symbols of the pioneer spirit of the West,'' 
thrive on public lands forever.
                                 ______
                                 

  Statement of Holly E. Hazard, Executive Director, Doris Day Animal 
                                 League

Dear Representative Hansen:
    On behalf of our 280,000 members and supporters nationwide, 
I am writing to express our concern about proposals made during 
the oversight hearing held on July 13 in Reno, Nevada.
    During the discussions with the first panel, Nevada State 
Senator Dean Rhoads underscored his frustration with the Wild 
Horse and Burro Program's administrative costs. He proposed 
that the Bureau of Land Management be given sale authority to 
offer ``excess'' horses for sale to the highest bidder. As you 
know, horses and burros who are removed from their home range 
are now placed in the Wild Horse and Burro Adoption Program. 
Although we have yet to see sufficientt information to support 
the removal of these animals due to overpopulation (as the Wild 
Free-Roaming Horse and Burro Act requires), placing the animals 
in adoptive homes is the only acceptable alternative to leaving 
them on the range.
    We strongly oppose any efforts to amend the Wild Free-
Roaming Horse and Burro Act that would further endanger these 
animals, which Congress has the duty to protect as part of our 
natural heritage. We are grateful that Representative Eni F.H. 
Faleomavaega was present to reinforce the original intent of 
the 1971 Act, passed to protect these animals from slaughter.
    I hope you will consider the immense public support for the 
survival of these magnificent animals and re-evaluate any 
attempts to amend the Wild Horse and Burro Act. With the 
Subcommittee's oversight authority of the Wild Horse and Burro 
Act and the overwhelming support for maintaining this strong 
American heritage, perhaps the questions raised should include:

        <bullet> why are outdated Environmental Assessments being used 
        to justify wild horse round-ups?
        <bullet> how can a sheep rancher permittee be allowed to keep 
        all of his herd on public lands while horses are removed?
    Thank you for your consideration.

    [GRAPHIC] [TIFF OMITTED] T0579.012
    
    [GRAPHIC] [TIFF OMITTED] T0579.013
    
    [GRAPHIC] [TIFF OMITTED] T0579.014
    
    [GRAPHIC] [TIFF OMITTED] T0579.015
    
    [GRAPHIC] [TIFF OMITTED] T0579.016
    
    [GRAPHIC] [TIFF OMITTED] T0579.017
    
    [GRAPHIC] [TIFF OMITTED] T0579.018
    
    [GRAPHIC] [TIFF OMITTED] T0579.019
    
    [GRAPHIC] [TIFF OMITTED] T0579.020
    
    [GRAPHIC] [TIFF OMITTED] T0579.021
    
    [GRAPHIC] [TIFF OMITTED] T0579.022
    
    [GRAPHIC] [TIFF OMITTED] T0579.023
    
    [GRAPHIC] [TIFF OMITTED] T0579.024
    
    [GRAPHIC] [TIFF OMITTED] T0579.025
    
    [GRAPHIC] [TIFF OMITTED] T0579.026
    
    [GRAPHIC] [TIFF OMITTED] T0579.027
    
    [GRAPHIC] [TIFF OMITTED] T0579.028
    
    [GRAPHIC] [TIFF OMITTED] T0579.029
    
    [GRAPHIC] [TIFF OMITTED] T0579.030
    
    [GRAPHIC] [TIFF OMITTED] T0579.031
    
    [GRAPHIC] [TIFF OMITTED] T0579.032
    
    [GRAPHIC] [TIFF OMITTED] T0579.033
    
    [GRAPHIC] [TIFF OMITTED] T0579.034
    
    [GRAPHIC] [TIFF OMITTED] T0579.035
    
    [GRAPHIC] [TIFF OMITTED] T0579.036
    
    [GRAPHIC] [TIFF OMITTED] T0579.037
    
    [GRAPHIC] [TIFF OMITTED] T0579.038
    
    [GRAPHIC] [TIFF OMITTED] T0579.039
    
    [GRAPHIC] [TIFF OMITTED] T0579.040
    
    [GRAPHIC] [TIFF OMITTED] T0579.041
    
    [GRAPHIC] [TIFF OMITTED] T0579.042
    
    [GRAPHIC] [TIFF OMITTED] T0579.043
    
    [GRAPHIC] [TIFF OMITTED] T0579.044
    
    [GRAPHIC] [TIFF OMITTED] T0579.045
    
    [GRAPHIC] [TIFF OMITTED] T0579.046
    
    [GRAPHIC] [TIFF OMITTED] T0579.047
    
    [GRAPHIC] [TIFF OMITTED] T0579.048
    
    [GRAPHIC] [TIFF OMITTED] T0579.049
    
    [GRAPHIC] [TIFF OMITTED] T0579.050
    
    [GRAPHIC] [TIFF OMITTED] T0579.051
    
    [GRAPHIC] [TIFF OMITTED] T0579.052
    
    [GRAPHIC] [TIFF OMITTED] T0579.053
    
    [GRAPHIC] [TIFF OMITTED] T0579.054
    
    [GRAPHIC] [TIFF OMITTED] T0579.055
    
    [GRAPHIC] [TIFF OMITTED] T0579.056
    
    [GRAPHIC] [TIFF OMITTED] T0579.057
    
    [GRAPHIC] [TIFF OMITTED] T0579.058
    
    [GRAPHIC] [TIFF OMITTED] T0579.059
    
    [GRAPHIC] [TIFF OMITTED] T0579.060
    
    [GRAPHIC] [TIFF OMITTED] T0579.061
    
    [GRAPHIC] [TIFF OMITTED] T0579.062
    
    [GRAPHIC] [TIFF OMITTED] T0579.063
    
    [GRAPHIC] [TIFF OMITTED] T0579.064
    
    [GRAPHIC] [TIFF OMITTED] T0579.065
    
    [GRAPHIC] [TIFF OMITTED] T0579.066
    
    [GRAPHIC] [TIFF OMITTED] T0579.067
    
    [GRAPHIC] [TIFF OMITTED] T0579.068
    
    [GRAPHIC] [TIFF OMITTED] T0579.069
    
    [GRAPHIC] [TIFF OMITTED] T0579.070
    
    [GRAPHIC] [TIFF OMITTED] T0579.071
    
    [GRAPHIC] [TIFF OMITTED] T0579.072
    
    [GRAPHIC] [TIFF OMITTED] T0579.073
    
    [GRAPHIC] [TIFF OMITTED] T0579.074
    
    [GRAPHIC] [TIFF OMITTED] T0579.075
    
    [GRAPHIC] [TIFF OMITTED] T0579.076
    
    [GRAPHIC] [TIFF OMITTED] T0579.077
    
    [GRAPHIC] [TIFF OMITTED] T0579.078
    
    [GRAPHIC] [TIFF OMITTED] T0579.079
    
    [GRAPHIC] [TIFF OMITTED] T0579.080
    
    [GRAPHIC] [TIFF OMITTED] T0579.081
    
    [GRAPHIC] [TIFF OMITTED] T0579.082
    
    [GRAPHIC] [TIFF OMITTED] T0579.083
    
    [GRAPHIC] [TIFF OMITTED] T0579.084
    
    [GRAPHIC] [TIFF OMITTED] T0579.085
    
    [GRAPHIC] [TIFF OMITTED] T0579.086
    
    [GRAPHIC] [TIFF OMITTED] T0579.087
    
    [GRAPHIC] [TIFF OMITTED] T0579.088
    
    [GRAPHIC] [TIFF OMITTED] T0579.089
    
    [GRAPHIC] [TIFF OMITTED] T0579.090
    
    [GRAPHIC] [TIFF OMITTED] T0579.091
    
    [GRAPHIC] [TIFF OMITTED] T0579.092
    
    [GRAPHIC] [TIFF OMITTED] T0579.093
    
    [GRAPHIC] [TIFF OMITTED] T0579.094
    
    [GRAPHIC] [TIFF OMITTED] T0579.095
    
    [GRAPHIC] [TIFF OMITTED] T0579.096
    
    [GRAPHIC] [TIFF OMITTED] T0579.097
    
    [GRAPHIC] [TIFF OMITTED] T0579.098
    
    [GRAPHIC] [TIFF OMITTED] T0579.099
    
    [GRAPHIC] [TIFF OMITTED] T0579.100
    
    [GRAPHIC] [TIFF OMITTED] T0579.101
    
    [GRAPHIC] [TIFF OMITTED] T0579.102
    
    [GRAPHIC] [TIFF OMITTED] T0579.103
    
    [GRAPHIC] [TIFF OMITTED] T0579.104
    
    [GRAPHIC] [TIFF OMITTED] T0579.105
    
    [GRAPHIC] [TIFF OMITTED] T0579.106
    
    [GRAPHIC] [TIFF OMITTED] T0579.107
    
    [GRAPHIC] [TIFF OMITTED] T0579.108
    
    [GRAPHIC] [TIFF OMITTED] T0579.109
    
    [GRAPHIC] [TIFF OMITTED] T0579.110
    
    [GRAPHIC] [TIFF OMITTED] T0579.111
    
    [GRAPHIC] [TIFF OMITTED] T0579.112
    
    [GRAPHIC] [TIFF OMITTED] T0579.113
    
    [GRAPHIC] [TIFF OMITTED] T0579.114
    
    [GRAPHIC] [TIFF OMITTED] T0579.115
    
    [GRAPHIC] [TIFF OMITTED] T0579.116
    
    [GRAPHIC] [TIFF OMITTED] T0579.117
    
    [GRAPHIC] [TIFF OMITTED] T0579.118
    

</pre></body></html>
